<html>
<title> - HEARING FROM THE HEARTLAND: PERSPECTIVES ON THE 2018 FARM BILL FROM KANSAS</title>
<body><pre>[Senate Hearing 115-168]
[From the U.S. Government Publishing Office]


                                                        S. Hrg. 115-168

                      HEARING FROM THE HEARTLAND:
                        PERSPECTIVES ON THE 2018
                         FARM BILL FROM KANSAS

=======================================================================

                             FIELD HEARING

                               BEFORE THE

                       COMMITTEE ON AGRICULTURE,
                        NUTRITION, AND FORESTRY

                          UNITED STATES SENATE


                     ONE HUNDRED FIFTEENTH CONGRESS

                             FIRST SESSION


                               __________

                           FEBRUARY 23, 2017

                               __________

                       Printed for the use of the
           Committee on Agriculture, Nutrition, and Forestry
           
           
 [GRAPHIC NOT AVAILABLE IN TIFF FORMAT]          
           


        Available via the World Wide Web: http://www.fdsys.gov/
        
        
                               __________
                                

                    U.S. GOVERNMENT PUBLISHING OFFICE                    
28-496 PDF                  WASHINGTON : 2018                     
          
----------------------------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Publishing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, 
U.S. Government Publishing Office. Phone 202-512-1800, or 866-512-1800 (toll-free). 
E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="c4a3b4ab84a7b1b7b0aca1a8b4eaa7aba9ea">[email&#160;protected]</a>        
        


           COMMITTEE ON AGRICULTURE, NUTRITION, AND FORESTRY



                     PAT ROBERTS, Kansas, Chairman

THAD COCHRAN, Mississippi            DEBBIE STABENOW, Michigan
MITCH McCONNELL, Kentucky            PATRICK J. LEAHY, Vermont
JOHN BOOZMAN, Arkansas               SHERROD BROWN, Ohio
JOHN HOEVEN, North Dakota            AMY KLOBUCHAR, Minnesota
JONI ERNST, Iowa                     MICHAEL BENNET, Colorado
CHARLES GRASSLEY, Iowa               KIRSTEN GILLIBRAND, New York
JOHN THUNE, South Dakota             JOE DONNELLY, Indiana
STEVE DAINES, Montana                HEIDI HEITKAMP, North Dakota
DAVID PERDUE, Georgia                ROBERT P. CASEY, Jr., Pennsylvania
LUTHER STRANGE, Alabama              CHRIS VAN HOLLEN, Maryland

               Joel T. Leftwich, Majority Staff Director

                Anne C. Hazlett, Majority Chief Counsel

                    Jessica L. Williams, Chief Clerk

               Joseph A. Shultz, Minority Staff Director

               Mary Beth Schultz, Minority Chief Counsel

                                  (ii)

  
                            C O N T E N T S

                              ----------                              
                                                                   Page

Field Hearing(s):

Hearing from the Heartland: Perspectives on the 2018 Farm Bill 
  from Kansas....................................................     1

                              ----------                              

                      Thursday, February 23, 2017
                    STATEMENTS PRESENTED BY SENATORS

Roberts, Hon. Pat, U.S. Senator from the State of Kansas, 
  Chairman, Committee on Agriculture, Nutrition, and Forestry....     6
Stabenow, Hon. Debbie, U.S. Senator from the State of Michigan...     9

                             Welcome Panel

Myers, General Richard, President, Kansas State University, 
  Manhattan, KS..................................................     2
Marshall, Hon. Roger, M.D., Congressman, U.S. House of 
  Representatives, Washington, DC................................     4
McClaskey, Hon. Jackie, Secretary, Kansas Department of 
  Agriculture, Manhattan, KS.....................................     5

                                Panel I

Clawson, David, The Clawson Ranch Partnership, Plains, KS........    13
Foster, Lynda, Foster Dairy, Fort Scott, KS......................    14
France, Amy, France Family Farms, Marienthal, KS.................    15
Heinen, Lucas, Farmer, Heinen Family Farms, Everest, KS..........    16
Lahey, Tom, Owner/Operator, Tom Lahey Farms, Moscow, KS..........    17
Moore, Kent, Director, Kansas Corn Growers Association, Iuka, KS.    19
Peirce, Cameron, Owner/Operator, Peirce Farms, Hutchinson, KS....    20
Springer, Michael, Springer Family Foods, LLC, Independence, KS..    21
Wood, Kenneth, Owner/Operator, Riverside Stock Farm, Inc., 
  Manhattan, KS..................................................    24
Winter, Kent, Owner/Operator, Kent Winter Farm, Mt. Hope, KS.....    23

                                Panel II

Hanes, Shan, President & CEO, First National Bank of Elkhart, 
  Elkhart, KS....................................................    37
Moyer, Catherine, General Manager, Pioneer Communications, 
  Ulysses, KS....................................................    38
O'Brien, Kathleen, General Manager, Nemaha-Marshall Electric 
  Cooperative, Axtell, KS........................................    40
Ott, Gena, Financial Officer, Frontier Farm Credit, Emporia, KS..    36
Peine, Derek, Chairman of the Board, Renew Kansas, Oakley, KS....    41
Ruehle, Greg, President & CEO, Servi-tech, Inc., Dodge City, KS..    42
Scott, Clay, Kansas Water Congress, Ulysses, KS..................    44
Tieben, Cherise, City Manager, Dodge City, KS....................    45

                              ----------                              

                                APPENDIX

Prepared Statements:
    Clawson, David...............................................    58
    Foster, Lynda................................................    63
    France, Amy..................................................    70
    Hanes, Shan..................................................    80
    Heinen, Lucas................................................    92
    Lahey, Tom...................................................    94
    Marshall, Hon. Roger.........................................    99
    McClaskey, Jackie............................................   100
    Moore, Kent..................................................   105
    Moyer, Catherine.............................................   109
    Myers, General Richard.......................................   119
    O'Brien, Kathleen............................................   122
    Ott, Gena,...................................................   126
    Peine, Derek.................................................   130
    Peirce, Cameron..............................................   136
    Ruehle, Greg.................................................   139
    Scott, Clay..................................................   144
    Springer, Michael............................................   152
    Tieben, Cherise..............................................   167
    Winter, Kent.................................................   168
    Wood, Kenneth................................................   171
Document(s) Submitted for the Record:
McClaskey, Jackie:
    Addendum to Written Statement................................   178
Question(s) and Answer(s):
Clawson, David:
    Written response to questions from Hon. Pat Roberts..........   182
France, Amy:
    Written response to questions from Hon. Pat Roberts..........   185
Heinen, Lucas:
    Written response to questions from Hon. Pat Roberts..........   189
Moore, Kent:
    Written response to questions from Hon. Pat Roberts..........   190
Springer, Michael:
    Written response to questions from Hon. Pat Roberts..........   191
Wood, Kenneth:
    Written response to questions from Hon. Pat Roberts..........   192


 
                      HEARING FROM THE HEARTLAND:
                        PERSPECTIVES ON THE 2018
                         FARM BILL FROM KANSAS

                      Thursday, February 23, 2017

                                 McCain Auditorium,
                                   Kansas State University,
                                                      Manhattan, KS
    The Committee met, pursuant to notice, at 2:02 p.m., McCain 
Auditorium at Kansas State University, 1501 Goldstein Circle, 
Manhattan, Kansas, Hon. Pat Roberts, Chairman of the Committee, 
presiding.
    Present: Senators Roberts and Stabenow.
    Chairman Roberts. Good afternoon. I call this hearing of 
the Senate Committee on Agriculture, Nutrition, and Forestry to 
order. I am privileged to convene this Committee as Chairman 
here in Manhattan, where I spent many years of learning as a 
student. I learned about journalism and a few other things. As 
your Senator, I continue to learn about how important 
agriculture is to our Nation's economy and our national 
security.
    Kansas State University exemplifies higher education, 
especially when it comes to preparing young people for lives in 
agriculture, from conducting fundamental practical research and 
extension to advance production to providing critical policy 
analysis and development to address our challenges. I am 
humbled and honored to be your Chairman and to kick off the 
2018 farm bill right here, right now, at home.
    I am also very proud to welcome my partner, Senator and 
former Chairwoman Deborah Stabenow from Michigan, back to 
Kansas, this time to Manhattan--the first time in Wichita and 
now Manhattan. Together, we will blaze a trail to a new farm 
bill.
    Before we offer our opening remarks, we will hear from our 
distinguished welcoming panel. I will introduce you all and 
then turn it over to you for your individual remarks.
    First we have our host, president of Kansas State 
University, Retired U.S. Air Force General Richard Myers. After 
a decorated career where he rose to the rank of four-star 
general and Chairman of the Joint Chiefs of Staff, President 
Myers retired to his home State to serve as president of his 
alma mater. We are proud of him, and we are grateful for his 
leadership.
    In 1863--I would remind my dear friend and colleague--
Kansas State University became the first fully operational 
land-grant college in America. Since its founding, Kansas State 
has continued to serve its students, Kansas, the Nation, and 
the world by providing high-quality education, research, and 
extension services. President Myers, thank you for hosting us 
today.
    Next is Congressman and Doctor Roger Marshall, the newest 
member of the Kansas delegation in the U.S. Congress. He 
represents the 1st Congressional District. We obviously call it 
the ``Big First.'' Roger was recently appointed to serve on the 
House Agriculture Committee, and I am pleased to work with him 
on all the issues that we face.
    Prior to being elected to the House, Dr. Marshall was a 
practicing OB/GYN from Great Bend. Dr. Marshall also served his 
country and earned the rank of captain in the United States 
Army Reserves, where he served 7 years. Dr. Marshall earned his 
undergraduate degree from, you guessed it, Kansas State 
University and his medical degree from that other university 
next to Baker.
    [Laughter.]
    Chairman Roberts. The University of Kansas. Thank you for 
your testimony today, Congressman Marshall.
    I am also very proud to have Dr. Jackie McClaskey, our 
Kansas Secretary of Agriculture, join us this afternoon. 
Secretary McClaskey grew up on a diversified farm near Girard 
and is also a proud alumna of K-State. She understands 
Washington well as she was a staff member for then-Congressman 
Sam Brownback. She earned a master's degree from Texas A&M.
    [Laughter.]
    Chairman Roberts. But came to her senses, returned to K-
State for her Ph.D. in animal science, specializing in animal 
disease response policy.
    Thank you to our distinguished welcoming panel, President 
Myers, Dr. Marshall, Congressman Marshall, Secretary McClaskey. 
Each panelist is recognized for 3 minutes for remarks. Sorry 
for that limit, but basically we are like King Tut. We are 
pressed for time.
    [Laughter.]
    Chairman Roberts. President Myers.

STATEMENT OF GENERAL RICHARD B. MYERS, PRESIDENT, KANSAS STATE 
                 UNIVERSITY, MANHATTAN, KANSAS

    General Myers. I do not know where to go with that, but, 
Chairman Roberts, it is indeed a pleasure to welcome you on 
behalf of Kansas State University to the campus of our great 
university and your alma mater. Welcome. All Kansans value your 
leadership on this important Committee. Senator Stabenow, thank 
you for wearing purple. You do us proud, and we very much 
appreciate that.
    [Applause.]
    General Myers. We welcome you to Kansas State University as 
well, another great land-grant institution which you are well 
familiar with.
    To my co-panelists up here for the introduction, 
Congressman Marshall, always good to be with you, and Secretary 
McClaskey. These are teammates as we try to make progress here 
in the State of Kansas, indeed the Nation and the world.
    What an opportunity we have today to watch Government in 
action. This is a serious hearing, a very serious hearing, just 
like if it were held in one of the hearing rooms on Capitol 
Hill. This is the same deal. You get to watch it right here up 
close and personal. You get to see the effort and the 
intelligence and energy that is put into these hearings, and we 
just feel so privileged that you chose Kansas State University 
to hold your hearing here today.
    Everybody in this room is going to be impacted by the 
policy that comes out of these deliberations, and so everybody 
has an interest, and I am glad you are all here.
    Kansas State University, we are the land-grant institution 
of the State of Kansas, and, of course, research and extension 
is a big part of that. We provide trusted, practical education 
to help individuals, businesses, and communities solve problems 
and develop skills to build a better future. A couple of 
examples.
    As many of you know, Senator Pat Roberts and many others on 
the Kansas delegation--Federal, our local legislators, the city 
of Manhattan, in fact, the whole State--were instrumental in 
getting the National Bio and Agro Defense Facility located here 
in Manhattan, Kansas. It is changing a lot of things for the 
way we view the world. Just recently last month, we had the 
Blue Ribbon Commission on Bio Ago Defense visit Kansas State 
University for 2 days. Both of these honorable folks here next 
to me were part of that as well.
    Senator Daschle led the Blue Ribbon Commission, and he 
passed on in his remarks, by the way, about how much he enjoyed 
working with you in the Senate when he was in the Senate as 
well from South Dakota.
    He said on the second day, in opening up a series of panels 
that were going to inform on bio-agro defense, he said, ``From 
what I have seen the first day, Kansas State is the Silicon 
Valley of bio-agro defense.'' I think that is probably true in 
lots of ways, but particularly since we have the NBAF here, 
this is not something that Kansas State could do by ourselves. 
But we think we are probably maybe the epicenter of how we 
protect our food system from both natural-caused issues and 
those by terrorists. So it is an opportunity, I think, to put 
the importance of agriculture
    infrastructure on the front burner in Washington, DC, and 
that is why we did it. Senator Daschle has been a good friend 
in that work.
    A few other brag points from research and extension. When 
it comes to wheat breeding, they say that the world's 
population is going to double by 2050, and how are we going to 
feed all these new mouths? Well, there are a lot of innovative 
practices that benefit Kansas, our Nation, and the world 
through cutting-edge research in areas such as genetics, 
disease prevention, and food security. We help agriculture--
Kansas' largest employer--be more profitable, sustainable, and 
efficient.
    With a name befitting its place at the summit of Kansas 
agriculture, the K-State-produced wheat variety called 
``Everest'' just completed its fourth year as the top variety 
in the State and the fifth time out of the last 6 years that a 
K-State variety has held the top spot. Everest was first in the 
field in 2009.
    Of course, we have a lot of interest in sorghum as well. As 
a global leader in sorghum research and promotion, K-State co-
founded a unique coalition with industry leaders and producers. 
In early 2016, the Kansas Grain Sorghum Commission, United 
Sorghum Checkoff Program, the Kansas Department of Agriculture, 
and K-State formed the Collaborative Sorghum Investment 
Program. The program focuses on expanding markets for sorghum 
and increasing the average national sorghum yield from 62 
bushels per acre to 100 bushels per acre by 2025 by funding 
research in such areas as plant breeding, genetics, and field-
level management.
    Then trying to tie a lot of things we do here in Kansas 
between the urban settings and the rural settings, 5 years ago 
it seemed like a simple idea: How do we find a way for our 
smallholder farmers in Kansas to sell the food they grow to 
more people? So K-State Research and Extension helps do this 
and helps farmers become more efficient, more profitable, and 
more self-sustaining. We also assist consumers and communities 
in developing their local food system, which adds a lot of 
vitality, of course, to the community.
    This food hub is a producer cooperative that goes beyond 
just the farmers markets and finds ways to get their produce to 
the larger buyers, such as restaurants, hospitals, schools, and 
food companies. It has been a very successful program to date.
    So, in closing, I could not be prouder that both you 
Senators are here holding this hearing with these number of 
constituents that are out there that will be very interested in 
everything we talk about today, and we are just as proud as we 
can be as Kansas State University to be hosting you. Thank you 
so much.
    [The prepared statement of General Myers can be found on 
page 119 in the appendix.]
    Chairman Roberts. Mr. President, thank you very much.
    Congressman Marshall.

STATEMENT OF THE HON. ROGER MARSHALL, M.D., A REPRESENTATIVE IN 
               CONGRESS FROM THE STATE OF KANSAS

    Dr. Marshall. Chairman Roberts and Ranking Member Stabenow, 
let me also be among the first to welcome you to the Big First 
Congressional District of Kansas, our Nation's largest ag-
producing district.
    You are now in the leading State for wheat and sorghum 
production, the largest district for beef sales, and home of 
the fastest growing dairy herd in the country. This is a 
fitting place to launch a review of our current farm programs 
and discuss solutions for the upcoming 2018 bill.
    You are also at ground zero for the challenges facing 
America's farmers and ranchers. The hurt in farm country is 
real. I am confident that today you will hear from folks in the 
trenches of this current economic downturn. I am looking 
forward to hearing their ideas and solutions to take back to 
Washington.
    For me, the downturn in the ag economy we all hear about 
becomes very real when I see the Kansas Farm Management 
Association reporting that net farm income in Kansas was less 
than $6,000 in 2015. I cannot imagine trying to raise a family 
on that income level. We know that these levels will fall in 
2016, and unless something drastically different happens, they 
are going to fall even lower in 2017.
    Today's hearing is focused on the 2018 farm bill, but I 
want to instill this: We cannot make farm policy in a vacuum. 
Monetary policy, trade policy, regulatory and economic policy 
all impact our producers' bottom lines just as much as the 
programs we will be discussing today--none perhaps more than 
trade. A robust agricultural trade agenda would work hand-in-
hand with our safety net programs to provide revenue from the 
marketplace and opportunity for our producers to succeed.
    I do not have all the answers on any of this current 
crisis, but I am committed to working with my colleagues across 
the aisle, down the aisle, and across the Capitol as we begin 
to write this 2018 farm bill. It is my hope that we can 
identify the areas where the 2014 bill fell short, correct 
them, and ensure we have farm, food, and nutrition policy that 
works for our farmers, ranchers, and consumers.
    I am honored to be here. I am honored to represent Kansas 
State University in the Big First District of Kansas. Thank you 
for having me.
    [The prepared statement of Mr. Marshall can be found on 
page 99 in the appendix.]
    Chairman Roberts. Roger, thank you very much.
    Secretary McClaskey.

   STATEMENT OF THE HON. JACKIE MCCLASKEY, SECRETARY, KANSAS 
          DEPARTMENT OF AGRICULTURE, MANHATTAN, KANSAS

    Ms. McClaskey. On behalf of the State of Kansas, Governor 
Sam Brownback, and the entire agricultural industry, it is also 
my honor to welcome you both here today--Chairman Roberts, to 
welcome you home, and, Senator Stabenow, to welcome you back. 
We are very pleased to have you here.
    Obviously, agriculture is important to Kansas. It is our 
State's largest industry. Forty-three percent of our economy is 
dependent upon agriculture. It contributes nearly $65 billion 
to our State economy. We export nearly $5 billion in 
agricultural exports. When we think about the future of 
agricultural policy, we know how critical that is not just to 
agriculture but to our entire State economy. So we very much 
appreciate the opportunity to be here with you today and join 
with you.
    When we think about that agricultural economy in our State, 
it is dependent on the farmers and the ranchers that you are 
going to meet today. You are going to meet some of the State's 
best and brightest agricultural leaders, and they are going to 
share with you their concerns. I will tell you that, without 
question, our economy is not where--it does not have the 
potential it is--agriculture is not as important to us without 
those individuals. They embody the same pioneer spirit of their 
forefathers. They show the values of family and faith and hard 
work and persistence and entrepreneurship and community and 
achievement every day in what they do. Because of those people 
and because of what they do, it is really interesting to me as 
I travel the State, and I was just thinking, as I sit here, in 
the last 48 hours I have been from Ulysses to Kansas City, 
Kansas, and then back here to Manhattan, and had the chance to 
see a lot of agricultural leaders. While, yes, everybody is 
concerned about commodity prices in a depressed farm economy, 
at the same time what I see is a positive attitude, an outlook 
to the future, a desire to grow and think about how we can do 
things better. It is because of those pioneer spirit values 
that they have that Kansas farmers and ranchers are able to 
continue to look forward and look to the future.
    But we hear the same challenges that I am sure you are 
going to hear about today. They are looking for a stable and a 
predictable safety net. They are looking for policy that is 
going to allow us to have a reliable workforce to serve the 
agricultural industry. They want to make sure that there are 
conservation policies out there that allow us to balance the 
needs of natural resources and economics. They want to make 
sure that regulations are based off sound science, common 
sense, and a good business mind-set. Like I am sure you are 
going to hear over and over today, we need access to more and 
more international markets so that we have a place to move our 
product.
    I sit here very confident that under your leadership, 
especially when you two talk about working together, that we 
can meet those challenges and we can do it together, whether 
that is State and Federal or the industries all working 
together. If you think about all the entities represented in 
this room, I am pretty sure there is nothing that we cannot 
accomplish.
    It is National FFA Week, so I will do my shout out to FFA 
and know that I am not the only person, that you all share 
this, that I believe in the future of agriculture, and I know 
this room does, and I believe that we can reach solutions 
together.
    Thank you for giving us the opportunity to be here.
    [The prepared statement of Ms. McClaskey can be found on 
page 100 in the appendix.]
    Chairman Roberts. Madam Secretary, thank you very much.
    Congressman, thank you so much.
    General Myers, President Myers, take care of your new knee, 
and do not do stupid things.
    [Laughter.]
    General Myers. Yes, sir.
    Chairman Roberts. I ask that our first panel of witnesses 
now take their seats. Senator Stabenow and I will then give our 
opening remarks. Thank you all. Would the first panel please 
come and take your seats?
    [Applause.]

 STATEMENT OF HON. PAT ROBERTS, U.S. SENATOR FROM THE STATE OF 
  KANSAS, CHAIRMAN, COMMITTEE ON AGRICULTURE, NUTRITION, AND 
                            FORESTRY

    Chairman Roberts. Thank you very much to all of you for 
coming, and we look forward to your testimony.
    Senator Stabenow, ladies and gentlemen on the panel, others 
here in McCain Auditorium, where as a freshman member of a 
social fraternity, Pi Kappa Alpha, I used to sit right up there 
in those seats because every assembly was required. I will not 
tell you what we did up there, but then that is beside the 
point.
    Welcome to the Senate Committee on Agriculture, Nutrition, 
and Forestry's first hearing on the 2018 farm bill. We start 
the journey to a successful and timely 2018 farm bill in the 
heartland because that is where it matters most. On our farms 
and ranches, businesses, and city and county halls all across 
the countryside, products, agribusiness, and our rural 
communities are the ones who sign up for the programs, comply 
with the regulations, and feel the burden firsthand of 
overburdensome or unsupported policies.
    So it is only right that we start this conversation here 
with you. No one understands the impacts of farm bills or 
policies set in Washington like America's farmers and ranchers 
in rural communities. Your experience, your story is what we 
need to hear before we start writing a new farm bill. What a 
success story you have to tell. America's producers, the folks 
that Paul Harvey spoke about in his famed ``So God Made a 
Farmer'' speech, have overcome drought, disease, floods, 
tornadoes, embargoes, and even their own Government to produce 
the safest, most abundant, and affordable food and fiber supply 
the world has ever seen or known.
    Your fight and perseverance yields results. According to 
the most recent census of agriculture, your hard work resulted 
in over $394 billion worth of ag products sold. In Kansas, that 
value is over $18 billion. More specifically to the Sunflower 
State, Kansas planted 23.2 million acres to crops in 2016. 
Livestock in Kansas includes 6.25 million cattle, 1.9 million 
hogs, and over 140,000 dairy cows. Those folks are growing 
pretty quick.
    Our agriculture industry throughout the value chain must 
grow. Technology must advance to better service this growth. 
Critical to that growth is stability and an adequate safety 
net. That is why we need a good farm bill.
    This farm bill journey will not be like the last one. The 
agriculture sector enjoyed high prices during the last debate. 
Now we face multiple years of low prices across the board. I am 
working to make Washington understand the differences between 
the economic conditions then and what you all are facing now. 
You all understand it. Washington needs to as well. Senator 
Stabenow understands it as well.
    To those who say passing a farm bill in this environment is 
a daunting task, I say together we can get it done. We have 
done that. We can get it done again. We must embrace the 
attitude of our producers' optimism and ingenuity. A farmer 
does not plant the seed without the faith and optimism of 
harvesting a good crop.
    But passing a new farm bill will not be easy. That is why 
with your help in crafting a bill that meets the needs of 
producers across all regions and all crops is absolutely 
necessary. Note that I said all regions and all crops. All of 
agriculture is struggling, not just one or two commodities. We 
must write a bill that works across our entire Nation.
    At the same time our Government is spending money it does 
not have, our national debt exceeds $19 trillion, agriculture, 
and specifically the farm bill, has consistently answered to 
that call to do more with less. The last farm bill voluntarily 
cut spending. The previous crop insurance contract with the 
Department of Agriculture was cut $6 billion from the program. 
I could go on and on, on where ag gave at the store. Farmers 
and ranchers pulled themselves up from their bootstraps. They 
understand fiscal responsibility. Therefore, we must be 
judicious with the scarce resources that we have. We must 
ensure programs accomplish their fundamental purpose. We must 
ask relevant questions and reexamine programs to determine 
their effectiveness.
    Are our conservation programs keeping farmland in operation 
or are they merely used to comply with overburdensome 
regulations? Are rural development programs helping to increase 
economic opportunities in farm country, or are they being used 
to build out infrastructure in urban areas?
    Now is the time to examine the core mission of USDA 
programs to ensure they are operating as intended, and if they 
are not, then we must refocus them. We need bold thinking and 
new ideas to address today's challenges during tough economic 
times.
    Let us not forget--it has been said before by our 
president, the president of Kansas State--that in a few short 
decades the global population will top 9 billion people, 
agricultural production will need to double--double--in the 
near future to meet demand. Accomplishing this task requires 
efficiency not just on the farm and ranch but also in our 
Government. Feeding an increasing global population is not 
simply an agriculture challenge. It is a national security 
challenge. Show me a country that cannot feed itself, and I 
will show you a nation in chaos. Look around the world.
    This means we need to grow more and raise more with fewer 
resources. That will take research, new technology, lines of 
credit, proper risk management. It takes the Government 
providing an adequate safety net and then getting out of the 
producers' way and then, of course, a robust and aggressive and 
transparent trade policy, quickly--quickly. I know the 
President wants strong bilateral trade agreements. It is time. 
It is time. We need to get our Secretary of Agriculture on 
board.
    Madam Senator--I do not think I have ever called you that 
before.
    [Laughter.]
    Chairman Roberts. To my colleague, but we need to get Sonny 
Perdue on board. We need a new Secretary. We need the Under 
Secretaries; they do the work. We need to implement a robust 
trade policy just as soon as possible.
    So that is why we are here today, to hear from the entire 
value chain of agriculture on what is working, what is not, and 
how we can improve. Thank you to our witnesses for taking time 
to provide your advice and counsel and perspective. Thank you 
to those in the audience for being here as well.
    Now, for those who want to provide advice and counsel on 
the farm bill, we have set up an email address on the Senate Ag 
Committee's website to collect your input into the farm bill 
discussion. Please go to Ag.senate.gov. That is pretty simple, 
Ag--even I can get that--Ag.senate.gov, click on the farm bill 
hearing box on the left side of your screen. You can send us 
your own input for the Committee to consider as we write the 
next farm bill. That link will be open for 5 business days 
following today's hearing. We want to hear from you. We want to 
hear your advice, your counsel, and your suggestions.
    I now recognize the distinguished Senator from Michigan, 
Senator Stabenow, for her opening remarks.

STATEMENT OF HON. DEBBIE STABENOW, U.S. SENATOR FROM THE STATE 
                          OF MICHIGAN

    Senator Stabenow. Well, thank you, Mr. Chairman, and good 
afternoon. It is really wonderful to be back with all of you in 
the great Sunflower State and to have the opportunity to hear 
from all of our distinguished witnesses today. I appreciate 
very much Kansas State University hosting us, and I thank 
President Myers for his welcome, and Secretary Jackie 
McClaskey. I have to say that--Mr. Chairman, I have to clarify 
one thing, because Kansas State is the first land-grant 
university only because your State legislature beat us. We are 
actually the oldest--Michigan State University, Michigan 
Agricultural College was the oldest land-grant university, but 
after the law passed, you beat us to the punch. So we will 
share that. We are the oldest; you are the first official.
    [Laughter.]
    Senator Stabenow. I just have to get that straight in case 
any of my Spartans are watching here.
    Chairman Roberts. I am just happy to be anywhere where I am 
not the oldest.
    [Laughter.]
    Senator Stabenow. So needless to say, we have a terrific 
tradition together of land-grant universities as well as 
agriculture production. I also want to thank Congressman Roger 
Marshall.
    In the coming weeks, I really look forward to hosting you 
as well, Mr. Chairman, at the oldest land-grant university, 
Michigan State University, for our second field hearing. We did 
this before when we wrote the last farm bill together, and I am 
very proud of the work that was done in a bipartisan way, and 
that is what we can do when we work together. We had the 
opportunity to be in Kansas and in Michigan, and so I am 
looking forward to having that happen again.
    Now, I do have to say, because we both like our sports 
teams, that I saw that the Wildcats had an impressive finish in 
the football season this year, winning your Bowl Game against 
Texas A&M. Unfortunately, Michigan State did not do so well in 
football this year. I was hoping we would be in a better spot 
going into March Madness, but I think both the Wildcats and 
Spartans are just hoping maybe to get in there, right? It has 
been a tough year for both of us. But hope springs eternal, and 
I am looking forward to betting you in the future when our two 
teams face each other.
    I really do want to start the hearing, though, by thanking 
Chairman Roberts for his years of leadership on issues 
important to American agriculture. We do have a great working 
relationship. We have had some very, very difficult issues to 
work through together, and despite some great odds, we have 
gotten a lot done. He is one of the hardest-working Members of 
the Congress, and I think it is because he reminds me all the 
time that he is a Marine. Let me tell you, nothing says honor, 
courage, and commitment like battling more than 70 amendments 
together to get the bipartisan farm bill through on the Senate 
floor the last time around.
    Kansas has a noteworthy history of Senators creating great 
legislative partnerships to advance and support American 
agriculture and food policy. Many of you may know the name 
Senator Arthur Capper as the author of the Capper-Volstead Act 
of 1922--I was not there, but Pat was telling me about it.
    [Laughter.]
    Senator Stabenow. Which authorized the creation of 
agriculture cooperatives, and we all know about the wonderful 
partnership of Senator Bob Dole and Senator George McGovern and 
their important work together to fight hunger.
    So I am looking forward to continuing the legacy of 
partnerships with a great Senator from Kansas as we work 
together on the 2018 farm bill.
    Looking back at the last farm bill, many people thought we 
would not get it done. The process was long. It was 
unconventional. We had to actually pass it twice in the Senate. 
We had a very tough budget situation and had to make hard 
choices. But we never lost sight of the fact that 16 million 
people--16 million people--have a job in our country because of 
agriculture and the food industry. So it has been our priority, 
and will continue to be, to support farmers and ranchers, to 
ensure consumers have access to affordable, nutritious food, 
and that we advocate for small towns and rural communities in 
our States and all across the United States.
    Despite all the challenges we faced, we accomplished a lot: 
reforming the commodity programs and supporting new risk 
management tools; providing permanent funding for three 
livestock disaster assistance programs, which I believe were 
accessed first after we passed the farm bill because of the 
droughts and the weather; creating new opportunities for 
voluntary conservation; streamlining nearly 100 different 
programs, either cutting or consolidating them. These historic 
reforms saved billions and protected the integrity of critical 
safety net programs like crop insurance.
    I am also proud of the work that Senator Roberts and I did 
together to create new partnerships on funding research, which 
I know is critical both here in Kansas and Michigan, and all 
across the country, including the creation of the Foundation 
for Food and Agriculture Research as a permanent agriculture 
research asset for us.
    So looking ahead to the next farm bill, we know that the 
farm economy, as the Chairman has said, is not where we want it 
to be. Low prices have pinched margins, made it tough for many 
producers to make ends meet. It is a tough time. We have heard 
from many producers that we need particularly to take a look at 
dairy issues and cotton issues, and we look forward to other 
issues that you raise with us today.
    I think our Senate Agriculture Committee members agree that 
we need to focus on the needs of farmers and rural communities 
in the next farm bill and not arbitrary cuts. We, in fact, 
created savings in the last farm bill. We were the only ones 
that offered up savings, $23 billion in cuts, in our own areas 
on the Committee. Now I think it is important that we address 
the needs that farmers and ranchers and others have.
    Furthermore, the Congressional Budget Office recently 
estimated that the current farm bill that we wrote is projected 
to save about $80 billion more than initially expected, largely 
driven by reduced spending in nutrition as people have found 
jobs and no longer need help, which is the way it is supposed 
to work. The safety net for families is working. Now we need to 
make sure the safety net for farmers is working as well as it 
needs to work.
    But savings from the current farm bill unfortunately are 
not allowed under budget rules to be used to address the other 
needs that we have, and so we will have challenges. We have a 
budgetary challenge facing funding 37 different key programs 
that do not have what we call ``budget baseline'' going 
forward, including beginning farmers and ranchers and veterans 
programs, food access, rural development, and the emerging bio-
based economy.
    The good news is that just last week more than 500 groups 
from every part of the farm and food sector came together to 
reject calls for additional cuts to farm bill programs, 
including crop insurance, nutrition, and conservation. We know 
the farm bill is doing more than its fair share to reduce the 
deficit, and further cuts would be made at the detriment of 
farmers and families.
    In this new Congress, we face a political climate unlike 
any other, and if there is anyone who can come together and 
pass a comprehensive bipartisan bill, I believe it is our 
Senate Agriculture Committee. I like to think our Committee is 
unique, and we certainly are going to work hard to get this 
done.
    Our interests are rooted in bipartisanship because we share 
the goals of supporting our Nation's farmers and ranchers who 
produce the safest, most abundant, and most affordable food 
supply in the world.
    Writing a farm bill is no simple task. We certainly cannot 
do it alone, and that is why we are here. This is the first of 
many hearings we will conduct to get input, and I cannot stress 
enough how important your input is to all of us.
    So today I look forward to learning about your priorities, 
what is working, what we should focus on to improve, and what 
is the best way to make those improvements. I am looking 
forward to your thoughts and ideas that we can take back as we 
get to work on the farm bill.
    Thank you, Mr. Chairman.
    Chairman Roberts. I thank my colleague, and thanks so much 
for coming to Kansas State and helping us kick off the first 
farm bill hearing.
    The folks on this panel are leaders in the Kansas 
agriculture sector. These individuals have devoted tremendous 
time and dedication to their industries over the years. We are 
interested to hear your perspectives as we embark on the 
development of the 2018 farm bill. First let us start with 
brief introductions of each of the witnesses.
    Mr. David Clawson of the Kansas Livestock Association, 
owner/operator, the Clawson Ranch Partnership, Plains, Kansas. 
Mr. Clawson joins us today from Plains. He is the president of 
the Kansas Livestock Association. He is the owner of several 
agriculture businesses, including a cow-calf operation, a dairy 
operation, a row crop farm, and he is a partner in the Plains 
State Bank. Mr. Clawson is a graduate of Kansas State 
University. David, thank you for joining us today.
    Second, Mrs. Lynda Foster is here today on behalf of the 
Dairy Farmers of America. She and her husband own and operate 
Foster Dairy in Fort Scott. After earning her degree in dairy 
production right here at Kansas State University, she and her 
husband became third-generation dairy farmers, and they 
currently milk 170 cows, raise corn, soybeans, alfalfa, and 
grass hay. Her son and daughter-in-law have also joined the 
operation. Welcome, Mrs. Foster.
    Mrs. Amy France is here today from Marienthal and is 
representing the Kansas Farm Bureau. Amy was raised off the 
farm by parents who were public educators and found her passion 
for agriculture later in life. She began the first 10 years of 
her career in a small-town lending institution at the First 
National Bank of Scott City. Amy now works alongside her 
husband, Clint, on their crop and livestock operation in 
western Kansas. Thank you, Mrs. France.
    Mr. Lucas Heinen joins us today from Everest. He is the 
district 1 director and president of the Kansas Soybean 
Association Board of Directors. He and his wife, Kendra, farm 
in Brown County and work with his parents, Harold and Ruby 
Heinen. They have a soybean, corn, wheat, and cattle farm. 
Lucas has been a full-time farmer for 15 years. He graduated 
from Kansas State in 2000 with a degree in agronomy and worked 
as a crop consultant. Welcome to the panel.
    Mr. Tom Lahey is here with us today on behalf of the Kansas 
Cotton Association. Yes, we grow cotton in Kansas. I keep 
reminding my colleagues from the South, when Stephen Foster 
wrote that old song, ``those old cotton fields at home,'' he 
was writing about Kansas. He is a fourth-generation farmer and 
rancher from Moscow. Tom served in the army during the Vietnam 
War. Thank you, sir, for your service. Tom has spent more than 
40 years farming and ranching in southwest Kansas. He raises 
cotton, wheat, corn, milo, and has a cow-calf operation. 
Welcome to the panel.
    Kent Moore with the Kansas Corn Growers is from Iuka. He is 
a fifth-generation family farmer in northwest Pratt County. Mr. 
Moore raises irrigated and dryland corn, irrigated soybeans, 
and dryland wheat. He received his bachelor's degree from 
Kansas State University in agriculture economics. Thank you for 
joining us today, Mr. Moore.
    Mr. Cameron Peirce from Peirce Farms in Hutchinson, Kansas, 
is a sunflower, wheat, canola, and soybean grower from a fifth-
generation family farm in Hutchinson and Reno County. He 
currently serves as the vice-chairman of the Kansas Sunflower 
Commission. Thank you for being here today.
    Mr. Michael Springer is a third-generation pork producer 
from Independence. He is the past chairman of the Kansas Pork 
Association. He, along with his wife, Christie, their two young 
sons, and other members of the Springer family run a family 
business that includes a farrow-to-finish swine operation, in 
addition to growing wheat and corn and soybeans. The Springer 
family employs 32 individuals, and they market 85,000 pigs 
annually. Mr. Springer is also a graduate of Kansas State 
University. Thank you for your testimony today, sir.
    Mr. Kent Winter, of Kent Winter Farms, Mt. Hope, Kansas, 
with the Kansas Sorghum Producers, fifth-generation farmer from 
Andale. Kent's family farm operation is primarily dryland and 
produces sorghum, wheat, soybeans, corn, and alfalfa. Kent 
holds a bachelor's and master's degree in agronomy from Kansas 
State University. Thank you for being here, Mr. Winter.
    Mr. Kenneth Wood, Riverside Stock Farm, Incorporated, 
Manhattan, Kansas. Ken, of Dickinson County, joins us on behalf 
of the Kansas Association of Wheat Growers. He is the owner/
operator of Riverside Stock Farm, Incorporated, near Chapman, a 
cash grain farm on which he grows wheat, corn, soybeans, and 
milo. He is a graduate also of Kansas State University. Welcome 
to the panel, Kenneth Wood.
    We will now begin the testimonies. I ask each of the 
witnesses to try to keep their statements to 3 minutes. I know 
that is tough, especially after you have listened to us speak 
and the distinguished panel before us. But we are going to try 
to keep statements to 3 minutes. Your full written statements 
will be printed in the official record and are publicly 
available online.
    Mr. Clawson, you may begin.

  STATEMENT OF DAVID CLAWSON, THE CLAWSON RANCH PARTNERSHIP, 
 ENGLEWOOD, KANSAS, AND PRESIDENT, KANSAS LIVESTOCK ASSOCIATION

    Mr. Clawson. Thank you. Mr. Chairman, Senator Stabenow, 
thank you for having me. Thank you for the nice introduction. I 
am president of the Kansas Livestock Association, and it is a 
true honor and privilege to be here to speak with you today.
    Development of the next farm bill is an important process 
for livestock producers. Whether directly or indirectly, 
provisions included in the farm bill can have a dramatic impact 
on the livestock sector. We oppose agriculture policies that 
pit one industry group against another, that distort market 
signals, and inadvertently cause economic harm to the livestock 
sector.
    KLA opposes a Livestock Title in the next farm bill. We 
think provisions with industry-wide support can easily be put 
into the Miscellaneous Title.
    KLA members oppose the involvement of the Federal 
Government in determining how cattle are marketed. The beef 
industry continues to transition toward more value-based 
marketing different types of methods. These systems allow 
cattle producers to capture more of the value of the cattle 
they produce.
    Many KLA members see significant benefits in value-based 
marketing programs. They have made it clear through KLA policy 
that the appropriate role of our organization is to protect 
each member's ability to market their cattle in the manner that 
best fits their businesses.
    With that in mind, KLA reiterates its opposition to the 
Grain Inspection, Packers and Stockyards Administration's 
interim final rule on competitive injury. The rule has been 
opposed by the vast majority of cattle producers since it was 
first introduced in 2010. Not only did GIPSA ignore the written 
testimony of thousands of cattlemen, they also chose to ignore 
eight separate Federal appellate courts. Finally, they chose to 
ignore the intent of language included by Congress in the 2008 
farm bill.
    Our analysis of the interim final rule leads us to believe 
that packers will offer just one price for all cattle, 
regardless of quality, if the rule is implemented. Packers have 
indicated they will not accept additional legal risk that the 
change in the competitive injury standard would create.
    As the 2018 farm bill is developed, KLA asks you to delete 
the language which led to the GIPSA interim final rule. We also 
ask for your assistance in convincing GIPSA to withdraw this 
rule immediately.
    We look forward to working with you on this upcoming farm 
bill, and thank you.
    [The prepared statement of Mr. Clawson can be found on page 
58 in the appendix.]
    Chairman Roberts. With 3 seconds to spare. David, thank you 
so much.
    Lynda Foster, Foster Dairy, Fort Scott, Kansas. Lynda.

 STATEMENT OF LYNDA FOSTER, OWNER/OPERATOR, FOSTER DAIRY, FORT 
    SCOTT, KANSAS, ON BEHALF OF THE NATIONAL MILK PRODUCERS 
            FEDERATION AND DAIRY FARMERS OF AMERICA

    Ms. Foster. Thank you, Mr. Chairman and Ranking Member 
Stabenow. My name is Lynda Foster, and I own and operate Foster 
Dairy in Fort Scott, Kansas with my husband and son. We milk 
170 cows, and we farm approximately 750 acres of corn, 
soybeans, alfalfa, and grass hay. I am pleased today to be here 
to offer testimony on behalf of Dairy Farmers of America and 
also the National Milk Producers Federation.
    The last farm bill established a new Title I program for 
dairy called the ``Margin Protection Program,'' or MPP. The 
final version of the program, which was originally designed by 
National Milk, cut the MPP benefit by 10 percent, rendering the 
program ineffective. That program is not working as we know it 
today.
    The changes that Congress made to the original MPP diluted 
the real cost that farmers like myself face every day and 
diluted the effectiveness of that program. The most important 
change needed in the MPP is the return of that 10-percent cut. 
Other MPP adjustments include, but are not limited to, the feed 
formula calculation as it relates to milk and feed prices. This 
is the right program. We do not need another program. What we 
need is to have the original cut put back in, and with a few 
tweaks, I really think dairy farmers will participate at even a 
greater participation.
    Additionally, dairy farmers want the opportunity to use--
like their commodity producers, we want the opportunity to use 
both the RMA, or the risk management agency, programs and Title 
I programs without any restrictions. Give me the same 
opportunity to protect my dairy as my friends have to protect 
their crops.
    A few other of the priority issues that the dairy industry 
is concerned about is, of course, farm labor, and I urge 
Congress to act immediately to address those needs for a stable 
and legal workforce. On our dairy farm, we chose to use robotic 
milkers and transitioned last September so that our labor 
problems are more solved because cows milk themselves now.
    The trade issue is also critical. Dairy farmers export 
almost 15 percent of their products, so we are really dependent 
upon trade.
    In child nutrition, I appreciate the Committee's bipartisan 
work on the issue of child nutrition. The dairy industry 
remains eager to help work with you to pass options for school 
kids. Kids are used to drinking what they drink at home. 
Research shows that they are not drinking skim milk and 1 
percent flavored. They are drinking 2 percent or whole milk.
    So I thank you for this opportunity to present to you what 
the dairy industry feels. I love the dairy industry. I am 
passionate about working on the farm, and I want to be able to 
pass this on to my son and my grandkids. Thank you.
    [The prepared statement of Ms. Foster can be found on page 
63 in the appendix.]
    Chairman Roberts. Lynda, thank you so much for your 
pertinent testimony. I do not like blue milk either.
    [Laughter.]
    Chairman Roberts. Mrs. Amy France, France Family Farms, of 
Marienthal, Kansas. Amy?

STATEMENT OF AMY FRANCE, OWNER/OPERATOR/PARTNER, FRANCE FAMILY 
 FARMS, MARIENTHAL, KANSAS, ON BEHALF OF THE KANSAS FARM BUREAU

    Ms. France. Thank you, Chairman Roberts, Ranking Member 
Stabenow. I am honored to represent Farm Bureau's Young Farmers 
and Ranchers Committee, along with my friends and family in 
western Kansas. Marienthal is where my husband, Clint, and I 
are blessed to raise our family of five, bringing them up 
knowing what hard work is all about and what it can accomplish. 
We want them to understand that it is a privilege as well as a 
responsibility to work our land and to feed our Nation.
    We raise wheat, grain, sorghum, corn, soybeans, along with 
grazing our cattle on pasturelands. Our ultimate goal is to 
leave our operation better than we found it and to be able to 
pass it on to the next generation. The EQIP program has been 
something that is helping us do just that. Through that program 
we will soon be rebuilding 35-year-old terraces to help hold in 
moisture and improve soil quality, as well as drilling a water 
well for our cattle. Without the assistance, our farm would not 
be able to afford making such critical improvements during 
these tough economic times.
    In lending, we are required to carry an appropriate level 
of crop insurance coverage. However, with the decline in our 
APH, that is becoming harder to do. When drought takes its 
tool, claims are made, APHs are lowered, insurance revenue 
guarantees decrease, and rates go up. Paying premiums is 
inevitable. But how can we increase our underlying coverage in 
order to stay in the system? Although as it sits crop insurance 
is not perfect, it has been shown to be the most timely and 
effective way to get money back to the farmers, unlike ARC and 
PLC, which can take up to 14 months after harvest.
    Right now, cash wheat is $1.05 under the board price at our 
local elevator. We also must have a workable Commodity Title 
safety net. Unfortunately, in regards to USDA programs, I have 
heard ``complex,'' ``confusing,'' ``burdensome,'' and those are 
just a few words I can say in front of my children.
    [Laughter.]
    Ms. France. Although they are intended to help the farmer, 
it is obvious the individuals writing and implementing these 
programs have little hands-in-the-dirt experience. One might 
even argue that these programs have caused additional risks on 
our operations.
    One step further is regulations. We must act on EPA 
regulations with Congress, and if we do not, then we will have 
to sell our spray rigs and depend on professional applicators 
to do the work for us, and they are overbooked. We need 
Congress and EPA to let private pesticide application continue.
    Senators, we thank you for spending your time with us and 
coming and hearing directly from us. Although some rules and 
proposals may sound good sitting behind a computer screen on 
Independence Avenue, they have real effect on me, my husband, 
our operation, and ultimately whether we can put food on the 
table tonight and in the next years.
    Thank you.
    [The prepared statement of Ms. France can be found on page 
70 in the appendix.]
    Chairman Roberts. Amy, thank you so much for some very 
pertinent testimony. Five children, right?
    Ms. France. Yes, sir. Three of my very own; two I am 
blessed to call mine.
    Chairman Roberts. I see. I did not mean to get into that.
    [Laughter.]
    Ms. France. I was not sure how to address it. I hope that 
is okay.
    Chairman Roberts. We both were sort of wondering about 
that. Thought you got married at 11 or something.
    [Laughter.]
    Ms. France. No.
    Chairman Roberts. Okay. I will straighten up. Sorry.
    Mr. Lucas Heinen, please present us with your testimony, 
sir.

    STATEMENT OF LUCAS HEINEN, FARMER, HEINEN FAMILY FARMS, 
   EVEREST, KANSAS, AND PRESIDENT, KANSAS SOYBEAN ASSOCIATION

    Mr. Heinen. Good afternoon, Chairman Roberts, Ranking 
Member Stabenow, and member of the panel and members of the 
audience. I am Lucas Heinen, a soybean farmer from Everest, 
Kansas, and I am president of the Kansas Soybean Association. 
We appreciate the opportunity to appear at this first hearing 
of your Committee on the 2018 farm bill.
    I understand that the conventional view in Washington is 
that the cost of farm programs and other parts of the farm bill 
will need to be reduced again, just as they were in 2014. But 
this is not acceptable to producers in Kansas. Farm prices are 
down over 40 percent since 2013, and U.S. farm income is 
expected to fall for the fourth straight year, by 8.7 percent, 
in 2017.
    Five hundred and two organizations that depend on the farm 
bill, including the Kansas Soybean Association and the American 
Soybean Association, have just sent a letter to the 
Congressional Budget and Appropriations Committees opposing 
further spending cuts in the 2018 farm bill. The letter points 
out that agriculture voluntarily accepted the $23 billion in 
cuts in 2014 which you mentioned, and that other sectors have 
made no contribution to deficit reduction whatsoever.
    As Congress looks forward to writing the 2018 farm bill, we 
believe the sharp and continuing fall of farm prices and income 
since 2013 justifies an increase in funding to strengthen the 
farm safety net and to make other worthwhile investments. 
Soybean producers have identified the following priorities:
    First, the crop insurance program needs to be protected. 
For many soybean producers, crop insurance is their most 
important risk management tool.
    Second, most Kansas producers signed up for the county ARC 
program and want to see it continued in the next farm bill. We 
do need to change the yields used under the program from NASS 
data to RMA data, when available, to minimize county-to-county 
discrepancies.
    Third, we support full funding of current conservation 
programs, including EQIP and the Conservation Stewardship 
Program, increasing funding for agricultural research under the 
AFRI, and authorization and funding for programs that promote 
biodiesel and bio-based products.
    Finally, we strongly support doubling mandatory funding for 
the Foreign Market Development Program and the Market Access 
Program to promote U.S. agricultural exports.
    In closing, Mr. Chairman, I would note the importance of 
keeping programs that support farmers and programs that support 
consumers together in the next farm bill. There is a 
relationship between the need to provide assistance to those 
who produce food and those who consume it, when either needs 
assistance, which explains how Congress has been able to enact 
farm bills for over 40 years.
    Thank you again, Mr. Chairman, for the opportunity to 
appear today.
    [The prepared statement of Mr. Heinen can be found on page 
92 in the appendix.]
    Chairman Roberts. Well, thank you, Lucas.
    Tom Lahey is with us today from Lahey Farms in Moscow, 
Kansas. Tom?

STATEMENT OF TOM LAHEY, OWNER/OPERATOR, TOM LAHEY FARM, MOSCOW, 
     KANSAS, AND VICE PRESIDENT, KANSAS COTTON ASSOCIATION

    Mr. Lahey. Chairman Roberts and Ranking Member Stabenow, 
thank you for this opportunity to provide testimony on the farm 
bill and policy needs of the cotton industry.
    I am a fourth-generation farmer and rancher from Moscow, 
Kansas, and raise cotton, wheat, corn, and grain sorghum, and 
have a cow-calf operation. Shortly after the passage of the 
2014 farm bill, cotton prices began a steep decline, the result 
of a build-up of global cotton stocks, decreased demand, and 
reduced exports. Since 75 percent of our cotton is exported, 
international markets heavily influence the financial condition 
of the U.S. cotton industry.
    While U.S. cotton acres are expected to recover, a major 
concern still exists since cotton is not eligible for the price 
and revenue policies like other crops. While ARC and PLC 
policies have generally performed well for me in responding to 
the market downturn that we are experiencing in crops like 
wheat, corn, and grain sorghum, I continue to be largely 
exposed to the full market impact on cotton since it was 
excluded from these programs. The National Cotton Council has 
been working to get cottonseed designated as a covered 
commodity and eligible for the ARC and PLC programs. We 
strongly believe this policy is needed to provide a bridge 
until the new farm bill is enacted.
    We urge the Committee to seek any opportunities to increase 
the Federal funding and farm policies that ensure consumers 
have the safest, most affordable and secure supply of food and 
fiber. Given the significant decline in farm bill spending, the 
dramatic downturn in farm income, and generally weak commodity 
prices, a greater investment in these critical policies for 
rural America should be in order.
    Our industry is extremely concerned about the further 
payment limits and eligibility requirements since these 
policies are too burdensome and restrictive given the scale of 
production necessary to be competitive. EQIP and CSP 
conservation programs continue to be extremely popular across 
the Cotton Belt. These programs have become integral parts of 
many producers' operations to help improve and protect the 
environment.
    Given our reliance on exports, it is essential that U.S. 
agriculture have a well-funded public-private partnership to 
expand export markets and grow demand. A central part of this 
effort is USDA's MAP and FMD programs. We believe it is 
justified for the new farm bill to invest additional funds in 
these programs.
    In closing, over the past 3 years, cotton producers have 
struggled with low prices, high production costs, and the 
resulting financial hardships. This has demonstrated the need 
and it is imperative for the next farm bill to bring cotton 
back into the Title I commodity policy to access the full 
complement of risk management tools such as other crops.
    Thank you.
    [The prepared statement of Mr. Lahey can be found on page 
94 in the appendix.]
    Chairman Roberts. Kent, I am going to delay you just for a 
moment.
    Sitting to my right, about three or four rows up is a 
gentleman that I think should be recognized, the former 
president of Kansas State University, who is going to have a 
hall dedicated--or not a hall, but it is an institution of 
learning, named after him.
    When I came back from Russia and got access to a secret 
city over there during the days of the Nunn-Lugar program, I 
saw a facility that was producing pathogens--and, Deborah, you 
have heard this speech many, many times. I am sorry to repeat 
it. But the man responsible for me to come back and to really--
we sat down, and we would talk about agriculture and things, 
and I said, ``My gosh, I do not know what we can do. I do not 
know how we can get ready if, in fact, there was an attack on 
our food supply.'' He said, ``I know what we can do. Kansas 
State can do it.'' So the person behind the person behind NBAF 
is sitting right over here and has done so much for this 
University in Kansas. Jon Wefald, please stand up.
    [Applause.]
    Chairman Roberts. Jon always did a splendid job of 
officiating football games from his position in the stadium.
    [Laughter.]
    Chairman Roberts. I just cannot tell you--I do not know why 
the referees did not agree with us, but that is beside the 
point.
    Kent Moore from Moore Farms in Iuka, Kent Moore, Kansas 
Corn Growers. Kent, please.

STATEMENT OF KENT MOORE, FARMER, IUKA, KANSAS, ON BEHALF OF THE 
                KANSAS CORN GROWERS ASSOCIATION

    Mr. Moore. All right. Thank you. I really do appreciate the 
opportunity to be here and represent Kansas Corn. I am a fifth-
generation farmer from Pratt County, Kansas, in the south-
central part of the State.
    Kansas Corn is very interested in improving and keeping the 
crop insurance program intact and bolstering the areas of 
weakness that need to be addressed during this farm bill 
process. But today I am going to focus my main comments in 
regard to Foreign Market Development and Market Access Program.
    The growth potential for ag exports is greater today than 
any other sector, and we believe it is time to increase our 
efforts to provide access to these growing markets around the 
world. We can produce bumper crops, and we need the ability to 
aggressively pursue trade to sell American grains and American 
meat around the world. Programs like the Market Access Program 
and Foreign Market Development are critical in building export 
markets for our ag products. But these two programs have had 
stagnant funding levels for a number of years, and we support 
the efforts of the agriculture trade community to increase 
funding for MAP and FMD.
    Over the years, the effective spending power of these 
programs has decreased by over 40 percent due to factors like 
sequestration, administrative costs, and inflation. Our 
farmers, through their checkoff dollars, support the U.S. 
Grains Council to develop export markets for corn, ethanol, and 
DDGS. Our checkoff dollars also support efforts to build export 
markets for red meat through the U.S. Meat Export Federation. 
The MAP and FMD programs make our farmers' investment of those 
checkoff dollars efficient and effective.
    Many of our State's ethanol plants that provide a needed 
market for our corn today in the State of Kansas were started 
and funded by Kansas farmers who sought new markets for their 
corn and sorghum. Today our grain surpluses are proof that we 
can provide more than enough corn for feed and fuel. Our 
ethanol plants provide a key market for our grains, clean 
domestic fuel for vehicles, and a desirable feed for livestock. 
Ethanol plants in Kansas have been a key factor in improving 
the lives of many rural Kansans. Located mainly in rural 
communities, our 12 Kansas ethanol plants produce nearly half a 
billion gallons of ethanol per year.
    How can the farm bill help ethanol? One way is increased 
funding for MAP and FMD. Exports are becoming an increasingly 
important segment of the ethanol industry. Ethanol and ethanol 
products are relative newcomers to this export world, and these 
programs are vital as we seek to expand international sales of 
both ethanol and DDGS.
    While farmers continually improve and adopt new 
technologies in seed, inputs, and equipment that allow us to 
sustainably manage our fields down to the square inch, much 
risk remains. This is why it is imperative that Kansas farmers 
have a Federal farm program that provides themselves and our 
Nation with the security needed to navigate an increasingly 
complex and challenging world.
    Thank you so much for the opportunity to speak.
    [The prepared statement of Mr. Moore can be found on page 
105 in the appendix.]
    Chairman Roberts. Thank you, Kent.
    We now have Cameron Peirce from Peirce Farms in Hutchinson.

  STATEMENT OF CAMERON PEIRCE, OWNER/OPERATOR, PEIRCE FARMS, 
    HUTCHINSON, KANSAS, AND VICE-CHAIRMAN, KANSAS SUNFLOWER 
                           COMMISSION

    Mr. Peirce. Thank you, Chairman Roberts and Ranking Member 
Stabenow. Welcome to the Sunflower State. My name is Cameron 
Peirce. I am the vice-chairman of the Sunflower Commission, and 
I am pleased that you are here to listen to the farm bill 
programs and the impact that they have on the Midwestern 
producers.
    Annually, Kansas plants around 90,000 acres of oil seed and 
confection flowers. In 2016, USDA estimated 1.6 million acres 
of sunflowers were planted nationwide.
    Similar to other commodities, the market price for the 
sunflower has declined over the past 3 years while 
international production has increased, making it increasingly 
difficult for farms to be profitable. In these challenging 
times, farm bill programs, and particularly the risk management 
programs, are vital food security mechanisms that keeps 
American food safe and affordable. Farm bill dollars are 
infused back into rural America through purchases of farm goods 
and services, ag inputs, and everyday household needs. These 
programs keep American agriculture successful and give 
producers a vital safety net. The volatility of weather and 
markets are unpredictable for the Kansas farmer; having a 
safety net in place ensures safe and affordable food can 
continue to be produced in Kansas and across the Nation.
    As you look at priorities in this new farm bill, please 
consider that producers still need a safety net for crop 
failure and disaster. Crop insurance has been and still is the 
best tool for these situations. Full funding for the crop 
insurance program is the highest priority for sunflower 
growers, as it is for all commodities. Both production and 
revenue protection insurance products are important options for 
producers. The flexibility these options offer is important as 
producers weigh input costs, planting decisions, and premiums. 
I encourage the Committee to continue the flexibility currently 
found in Federal crop insurance.
    Conservation programs in the farm bill are also an 
important part of crop production, and sunflowers benefit from 
having those programs in place. Sunflowers are generally part 
of a robust no-till rotation, a practice that has gained wider 
acceptance and implementation through EQIP funding. NRCS' soil 
health initiative has been a big success in the last few years. 
Producers, agribusiness, and commodity investors now understand 
how important soil health practices are to increasing 
productivity on the land and protecting our natural resources 
at the same time. Programs like EQIP need to be maintained at 
the current funding levels.
    Some of the newer programs contained in the last farm bill 
have been important to producers, especially over the last 2 
years, specifically ARC-County and PLC. These are vital tools 
for producers to maintain their businesses.
    Both of these programs were well intentioned when 
authorized, but could use some improvements in the next version 
of the farm bill to even things out. I hope the Committee will 
examine some of the flaws in these programs as the discussion 
about reauthorization takes place.
    I understand there will be many more public interests 
lobbying your Committee for other programs and overall debt 
reduction actions, so I will take this opportunity to remind 
you that American agriculture is the original industry that got 
this country started. We still produce the safest and most 
abundant food worldwide.
    In Midwest States like Kansas, ag is still a major 
contributor to the State and local economies. We need your 
support and leadership in Congress to continue our tradition 
and our way of life. With the utmost respect to you and the 
difficult decisions you have ahead, I would ask you remember 
those of us out in the country that put food on your tables as 
you make these decisions.
    Thank you.
    [The prepared statement of Mr. Peirce can be found on page 
136 in the appendix.]
    Chairman Roberts. Cameron, thank you very much for that 
reminder. Thank you for your strong testimony on behalf of crop 
insurance.
    Mr. Michael Springer of Springer Family Foods, 
Independence, Kansas.

  STATEMENT OF MICHAEL SPRINGER, SPRINGER FAMILY FOODS, LLC, 
INDEPENDENCE, KANSAS, ON BEHALF OF THE NATIONAL PORK PRODUCERS 
                            COUNCIL

    Mr. Springer. Good afternoon, Chairman Roberts, Ranking 
Member Stabenow, and members of the Committee. I am Michael 
Springer, a third-generation crop and hog farmer from 
southeastern Kansas, and I am proud to represent the Kansas and 
U.S. pork industry today.
    Like all pork producers, in the next farm bill I would like 
to see provisions that help strengthen my industry's 
competitiveness. I would hope it does not contain provisions 
that would restrict our ability to raise and sell animals or 
compete in the global marketplace.
    The U.S. pork industry's top priority for the next farm 
bill is establishing a foot-and-mouth disease vaccine bank. If 
this country ever had an FMD outbreak, it not only would 
devastate my farm and the whole livestock industry, but the 
entire U.S. economy. An Iowa State University study estimates 
that an outbreak of FMD would immediately shut off our meat 
exports, would cost the U.S. pork, beef, corn, and soybean 
sectors alone $200 billion over 10 years. We need the capacity 
to produce enough vaccine to quickly control and eradicate the 
disease. We need the funds to make that happen.
    Specifically, we want the farm bill to direct USDA to 
contract for: an offshore, vendor-maintained vaccine antigen 
bank that would have antigen concentrate to protect against the 
23 most common foot-and-mouth disease strains currently 
circulating in the world; a vendor-managed inventory of 10 
million doses, which is the estimated need for the first 2 
weeks of an outbreak; and an international vaccine manufacturer 
with the capacity to produce 40 million doses of vaccine. That 
is a mouthful, 40 million doses.
    While an FMD vaccine bank would protect the U.S. pork 
industry from likely inevitable crisis, a more here-and-now 
issue is efforts to regulate the buying, selling, and raising 
of animals. Chief among these efforts pushed by the last 
administration is the Farmer Fair Practices Rules, specifically 
an interim final rule that is set to take effect in a couple of 
months. That regulation will make it easier to sue and win 
Packers and Stockyard Act cases, which carry triple damages. 
Livestock industry experts have said this will lead to an 
increase in lawsuits and an increase in legal risks for the 
meat industry, which no doubt will take steps to reduce that 
risk. That likely would mean consolidation of the livestock 
industry, which would reduce, not increase, competition in the 
marketplace.
    We do not need Government intervention in the market 
because it is working. We are seeing it work now in the U.S. 
pork industry. Five new producer-owned packing plants will be 
coming online in the next 2 years, and there is no doubt these 
plants will be chasing hogs, meaning producers will be good, 
which should mean getting some good prices for animals.
    The bottom line on the farm bill, Congress should craft 
legislation to help farmers remain competitive and provisions 
that would help us compete. We ask that the Congress consider 
in the farm bill helping us protect our markets and help us 
protect ourselves from disasters like FMD so that our family 
can help feed your family and the rest of the world bacon.
    Thank you for the opportunity, Mr. Chairman.
    [The prepared statement of Mr. Springer can be found on 
page 152 in the appendix.]
    Chairman Roberts. Michael, several years back, we had an 
exercise on what would happen with an FMD outbreak, with an 
attack from a foreign entity. I was asked to serve as President 
of the United States during that time. I think Secretary Ann 
Veneman came, along with all the Cabinet. During that exercise, 
it played out that it started in Texas, and by the time Texas 
closed its border, obviously it was in Oklahoma, and by the 
time--and you can see what happened all the way up to North 
Dakota. We were trying to isolate. By the time we really found 
out what was going on with certain strains of cattle to 
preserve them, that did not work either. We ended up having to 
terminate a lot of cattle, all sorts of problems with that, and 
I will not go into it.
    All of our export stock--not just meat. When something like 
this happens, it affects all of our exports. Then we lost a lot 
of products from grocery stores--not only 1 year--2 years, 3 
years down the road. It was just devastating. That was one of 
the exercises that Jon Wefald and I talked about that made us 
really work so hard for NBAF. So we need a vaccine, and that is 
a possible thing. I mean, this is not some impossible dream. We 
can do this. So I thank you for your comments on that, and 
thank you for coming.
    Mr. Kent Winter, Kent Winter Farms, Mt. Hope, Kansas.

STATEMENT OF KENT WINTER, OWNER/OPERATOR, KENT WINTER FARM, MT. 
  HOPE, KANSAS, AND PRESIDENT, KANSAS GRAIN SORGHUM PRODUCERS 
                          ASSOCIATION

    Mr. Winter. Chairman Roberts, Ranking Member Stabenow, and 
members of the Committee, I want to thank you on behalf of the 
Kansas grain sorghum farmers for this opportunity to share our 
views on the discussions surrounding the upcoming farm bill.
    I farm near Andale in south-central Kansas, just outside 
Wichita, mostly dryland, producing grain sorghum, wheat, corn, 
soybeans, and alfalfa, and I currently serve as president of 
the Grain Sorghum Producers Association here in Kansas.
    Kansas again last year was the Nation's leading producer of 
grain sorghum, coming in with 55 percent of the U.S. crop. 
Sorghum is used as a feedstock for ethanol, for livestock feed, 
and is also exported to other countries. Prices for most 
commodities this last year have collapsed, and lenders and 
farmers are very worried about producers being able to stay in 
business. When producers apply for a farm operating loan, the 
banker has two questions for them: A, what are your crop 
insurance guarantee levels? B, what do you anticipate in other 
farm program safety net payments? The ability to secure annual 
operating loans directly depends upon the stability of farm 
programs. That operating capital is what bolsters local rural 
economies.
    The current Price Loss Coverage program is working for 
sorghum. As prices dropped significantly in the past year, 
needed support has kicked in for sorghum farmers. We appreciate 
a PLC program that today helps fill the void that low grain 
prices have caused.
    Mr. Chairman, in regards to the conservation of our natural 
resources, sorghum is not only the Nation's premier water-
saving grain crop, but it also offers many valuable 
conservation characteristics. Additionally, sorghum is drought 
tolerant and well suited for the arid conditions and is 
especially important in areas that draw water from the Ogallala 
Aquifer. Sorghum is a proven water-sipping crop and will be a 
solution, I think, to which many irrigation farmers will turn.
    Finally, trade by way of exports remains vital for our 
industry. We support increased funding for the Market Access 
Program and the Foreign Market Development program in this farm 
bill.
    One last item I would like to address is research. 
Unfortunately, our industry is being plagued by a new insect 
called the ``sugarcane aphid,'' which has caused significant 
financial and management challenges for our farmers. Research 
remains the answer for a long-term solution to this growing 
challenge, and we need help to deal with it and the damage that 
it is causing.
    In closing, sorghum is a crop that is planted to make the 
most of difficult growing conditions, and it is also uniquely 
exposed to risk. Well-thought-out farm programs that address 
these risks will benefit our growers as well as our local, 
State, and national economies.
    Thank you.
    [The prepared statement of Mr. Winter can be found on page 
168 in the appendix.]
    Chairman Roberts. Kent, thank you very much, more 
especially your pointing out the need for forbearance in 
regards to our situation with credit. We are aware of that 
particular little fellow that is infesting our products, Kansas 
State is on top of it, and we hope we can get some answers for 
that just as quickly as we can.
    Kenneth Wood--Kenneth, I do not know why on Earth you are 
sitting next to last and then we are reversing this. Obviously 
very poor staff work.
    [Laughter.]
    Chairman Roberts. The first speech I ever made when I 
worked for Frank Carlson was for the Kansas Wheat Growers in 
Dodge City. So I guess, Mr. Winter, you will not mind me saying 
that we saved Ken, the best, for the last and for our wheat 
growers. Please proceed.

 STATEMENT OF KEN WOOD, OWNER/OPERATOR, RIVERSIDE STOCK FARM, 
 INC., MANHATTAN, KANSAS, AND PRESIDENT, KANSAS ASSOCIATION OF 
                         WHEAT GROWERS

    Mr. Wood. Thank you, Mr. Chairman. You may want to reserve 
judgment on that until after I have given my testimony.
    [Laughter.]
    Mr. Wood. Mr. Chairman, Ranking Member Stabenow, and 
members of the Committee, thank you for the opportunity to 
address you today. My name is Ken Wood, and I farm in central 
Kansas. I am president of the Kansas Association of Wheat 
Growers and am honored to submit the following comments:
    Wheat is an important crop for Kansas. With record yields 
during the 2016 harvest came record stockpiles of wheat in 
Kansas and around the world, resulting in historically low 
prices. Many feel that these low prices and a struggling farm 
economy are what caused Kansas wheat farmers to plant nearly 1 
million fewer acres last fall, the second lowest planted wheat 
acres in Kansas in over a century.
    Low prices and rising costs are placing even more stress on 
the Kansas wheat farmer, forcing them to cut budgets and find 
efficiencies. This situation highlights the need for Federal 
programs like crop insurance in Title I and illustrates the 
vital importance of a farm safety net.
    Crop insurance, for me, is the most important segment of 
that farm safety net. When a natural disaster looms on the 
horizon, whether it is a drought, flood, or in my case, a 
tornado, we know that crop insurance will help keep us in 
business.
    On May 25, 2016, my farm, home, vehicles, most of my 
machinery, and approximately 300 acres of my crops were 
destroyed by an EF4 tornado. The availability of crop insurance 
was not the deciding factor, but certainly a contributing 
factor in my decision to rebuild my business. I honestly do not 
think that I would have had the courage to start over without 
having the protection that crop insurance offers. I insure my 
buildings and machinery investment. Likewise, I want to insure 
my crop investment. For most of us, crop insurance will not 
guarantee a ``good year,'' but it offers the promise of 
``another year.''
    Despite passage of a 5-year farm bill, some in Congress 
continue to come after Title 1 farm programs and the Federal 
crop insurance program. Efforts to cut crop insurance have come 
after the Federal share of premium support, either through hard 
caps or through establishing AGI limitations on eligibility. 
Such caps would limit participation and make crop insurance 
more expensive for all of us.
    Increasing demand for wheat products is one way to help 
turn the agricultural economic situation around through 
increasing food aid and by supporting international trade. 
Increasing trade is one of the easiest and most effective way 
to increase commodity prices and improve the rural economy. 
Kansas ranks as the 8th largest State in terms of exports of 
agricultural products. Because of this, our association has 
been a major supporter of international trade deals such as 
NAFTA and TPP. On average, half of the wheat grown in Kansas is 
exported. Without trade, the Kansas farmer will continue to 
struggle.
    Finally, once we do have trade deals, we need to make sure 
that we are taking action to enforce them. U.S. farmers are not 
on a level playing field in the international marketplace due 
to subsidies employed by other countries.
    I would like to thank you for holding this farm bill 
hearing in Kansas, and I look forward to answering any 
questions that you might have.
    [The prepared statement of Mr. Wood can be found on page 
171 in the appendix.]
    Chairman Roberts. Thank you again to all of you for taking 
the time to join us today.
    Senator Stabenow. I have a few questions here, and I a 
going to turn to you. Then if there are any other questions 
that you feel that we have not covered--I am talking to the 
panel--please let us know.
    Everybody up here has talked about crop insurance, thank 
goodness. Over the last couple of years, Kansas producers faced 
a range of natural disasters--floods, drought, wildfires, 
freezes--wildfire, man, that was something else in south-
central Kansas--yes, even tornadoes. For years, Kansas 
producers have said the crop insurance program is not simply 
beneficial, but it is critical to managing risk. We just heard 
that testimony from the Kansas wheat growers.
    From your standpoint and the commodities you represent, is 
crop insurance working to provide adequate coverage for these 
types of natural disasters? Ken, I am going to start with you, 
and just go right down the line. Where are you, Ken? Right 
there. Down the line and back again, if you want to.
    I am sorry. Are you talking about Kent Winter?
    Staff. Start at that end and work back.
    Chairman Roberts. Okay. Since there was this terribly 
egregious mistake that staff made, we are going to start at the 
end of the table and go that way. All right?
    Mr. Winter. Mr. Chairman, would you please repeat the 
question again?
    Chairman Roberts. Crop insurance, how valuable----
    [Laughter.]
    Chairman Roberts. We are back to crop insurance. I am 
sorry. Basically, I am asking from your standpoint and the 
commodities you represent, is crop insurance working to provide 
adequate coverage for these types of natural disasters?
    Mr. Winter. Mr. Chairman, I believe that crop insurance has 
been working very well for our situation, and I also want to 
mention that the amount of assistance that we have on our 
premiums is what helps make this program work. I am fearful 
that if that was not out there, we would not have the 
participation level that we now have.
    Chairman Roberts. I want to thank the distinguished Senator 
from Michigan for joining me and several others on the floor of 
the Senate where there was proposed yet another--after $6 
billion and another $6 billion, they proposed another $3 
billion cut with the last continuing resolution. I sort of had 
a conniption fit, and we took the floor. We had a colloquy, we 
had bipartisan support, and that cut was eliminated.
    I can just tell you, in terms of crop insurance, we have to 
have adequate funding. If that is not going to happen, well, it 
is not going to happen. So I appreciate that.
    Does anybody else want to contribute to that?
    Mr. Wood. I would have to agree with Kent about how 
important crop insurance is. It is vitally important for us as 
producers to know what the worst-case scenario is so we can 
plan from there, and along that same line, it is very important 
that our lenders and our bankers and people who finance us also 
know what our worst-case scenario is. So like I said before, it 
is not going to make a good year for you, but it actually gives 
you some stability and a little bit of confidence that you will 
be able to go into the next year.
    Chairman Roberts. I appreciate that. Thank you very much.
    Mr. Clawson, your testimony mentions that decisions 
regarding marketing of cattle and beef are best left to the 
industry rather than Congress. Can you describe an example 
where beef producers as an industry banded together to address 
marketing concerns?
    Mr. Clawson. Yes. For more than a year, the National 
Cattlemen's Beef Association has had a working group that has 
been discussing issues like price discovery, market volatility 
and futures contract specifications. The Fed Cattle Exchange, 
which is an online fed cattle market, is the result of this 
working group that got together, and it has come to fruition. 
The Fed Cattle Exchange gives pricing information back into the 
markets, so that is one area.
    Another one is our KLA working group that we are trying to 
come up with different ideas, and we think we have come up with 
more robust pricing information being available in the 
mandatory price reporting data. Now, this is data that is 
already being reported, and we have asked for access to that so 
we can do our analysis, and we have been denied. So we would 
ask this Committee's help in getting access to that data so we 
can do our analysis.
    [Pause.]
    Chairman Roberts. We are going to work with you on that.
    Mr. Clawson. Thank you.
    Chairman Roberts. I had asked simply if we have made that 
request, and we will be working with you to get that done.
    Amy, you mentioned in your testimony some of the regulatory 
burdens impacting your farming operation. During these tough 
times, I am sure these costs can be very crippling. Can you 
elaborate or share other regulatory challenges impacting your 
farm's profitability? My next question tied into that is: Do 
you feel resources at the USDA, for example, conservation 
program dollars, are being directed to address regulatory 
requirements? Or would anybody else on the panel wish to add 
anything along these lines? Please.
    Ms. France. Yes, thank you. I got a little distracted by my 
time limit, and you said the gavel would go down at 3 minutes. 
I actually wanted to address regulatory burdens. Again, with 
EPA restricting more and more chemicals, in turn that increases 
our tillage, burning more fuel and adding wear and tear on our 
already aging equipment. So that is another thing. For 
instance, atrazine is one that we use, and although there are 
alternatives out there, it has been forecasted that if we lost 
atrazine, it could cost the farmers between $30 to $59 per 
acre, which would be extremely devastating to our bottom line.
    Another way is, unless Congress acts on the Worker 
Protection Standard (WPS), we will be forced to sell our spray 
rig and hire it done. In that case, we are the ones that know 
our fields better than anyone else and when things need to be 
done, and we cannot wait on overbooked professional 
applicators. So that is something as far as regulatory burden 
that we feel needs to be addressed.
    Chairman Roberts. Thank you for that.
    Anybody else?
    Mr. Winter. Mr. Chairman?
    Chairman Roberts. Yes, sir.
    Mr. Winter. I would also like to comment on atrazine. If we 
lose that, that will be devastating to our industry. It is 
frustrating--and I will try to be respectful here, but it is 
very frustrating to see that the EPA is ignoring decades and 
decades of sound science, over 7,000 studies that have proved 
the safety of the chemical, the herbicide called ``atrazine.'' 
A lot of what appears to be going on from my side of the fence 
is they are changing the rules, they are moving the goalpost to 
where the sound science is being discarded, and they are using 
models that really are not applicable to modern-day agriculture 
to make these decisions with.
    The other thing I would like to point out is regarding the 
Waters of the US. I want to give you just a little bit of a 
sense of how that would have impacted me. A year and a half 
ago, in August of 2015, we learned that it was time to spray 
sugarcane aphids. They had come up out of Oklahoma very, very 
rapidly. So while we were lining up the artillery, so to speak, 
to take care of this situation, we did not have much time. We 
just had a couple of days. We did not know it at the time, but 
we were protecting 150-bushel-an-acre dryland grain sorghum. 
Had WOTUS been fully implemented, we would have been mired and 
mired and mired in the process for getting permit applications 
in order to do this spraying. So that would have been 
devastating to us in that particular situation.
    Chairman Roberts. What water would WOTUS have been 
protecting on that ground or on that crop?
    Mr. Winter. As I understand it, the WOTUS regulations, if 
fully implemented, would impact and take into account every 
little low spot in the field, every little gully in the field 
that drains toward a creek or a river. We are talking about 
small gullies that may only have water in them a couple of days 
out of the year.
    Chairman Roberts. So, in other words, WOTUS was being made 
applicable to dry creek beds and farm ponds where no self-
respecting duck would ever land, right?
    Mr. Winter. That is correct, Mr. Chairman.
    Chairman Roberts. Yes, that is now before the courts, and 
as a CRA--the Congressional Review Act--subject, we are going 
to have a lot of talks about that.
    Senator Stabenow, I have taken way too much time here for 
questions. Please.
    Senator Stabenow. Well, thank you, Mr. Chairman, and thank 
you to each of you for your input. It is very important.
    I wanted to ask a little bit about our voluntary 
conservation practices. Many of you have mentioned EQIP and the 
Conservation Stewardship Program in particular. But, Mr. Lahey, 
I wondered if you might speak a little bit. You stated that 
both the EQIP and CSP programs are highly accessed by cotton 
farmers, and I wondered if you might share in more detail what 
the biggest conservation issues are for your farmers and why 
these working lands programs are so important to helping 
address those.
    Mr. Lahey. I am not in the middle of cotton country, but 
when I developed my testimony, I used information from the 
National Cotton Council. In my area we have crop rotation, so 
our erosion control is not much impacted. EQIP, just yesterday 
a neighbor talked that he was accepted into the EQIP program to 
idle irrigation system that will save water and he can dryland 
farm that. So that was one benefit of the EQIP.
    The CSP programs are active and help in my area where there 
is water and fencing and stuff like that in my area. But I am 
not in the middle of cotton country, being located in southwest 
Kansas.
    Senator Stabenow. I got you. Okay.
    Mr. Heinen, you had talked about that both EQIP and CSP 
should be fully funded in the next farm bill. I am just 
wondering, as we go forward and locate all these programs in 
conservation, I wonder how each of you might respond to that. I 
know that EQIP and the Conservation Stewardship Program are 
used a lot in Kansas, but I wondered Mr. Clawson, if you have 
any thoughts on that? I wonder if you could just answer yes or 
no, do you think that these are two things that ought to be 
fully funded?
    Mr. Clawson. Yes, the EQIP program has been very beneficial 
for the livestock industry. I think 60 percent of the program 
goes toward the livestock, and that helps----
    Senator Stabenow. It does, yes.
    Mr. Clawson. That helps us with the ponds, the lagoons, and 
everything, and makes sure those are getting put in correctly 
and right, and we get cost-share to get those done. We put in 
water systems in pastures and fencing systems to be able to 
better rotate through those pastures. I mean, there are a 
number of benefits to the environment because of the EQIP 
program.
    Senator Stabenow. All right. Thank you.
    Mrs. Foster, EQIP and Conservation Stewardship Program, are 
those priorities?
    Ms. Foster. Well, we have not personally used the EQIP 
program, but we have relied on, when we wanted to do some 
conservation things, our extension specialist out at K-State 
for some of those things. We did have some ground in CRP, which 
just recently came out, and we are still waiting on some rules 
and regs to decide whether to put those back in or not.
    But I do know other farmers use EQIP quite a bit, and so I 
would say it is very important to them.
    Senator Stabenow. Right. Mrs. France?
    Ms. France. I would just reiterate what I said earlier, 
without the EQIP program, we would not be able to rebuild 
terraces and install the water wells for our cattle. At this 
time, with the markets the way they are, we are utilizing those 
programs very heavily, and we are thankful they are there to 
assist when we cannot do it on our own with these tough 
economic times.
    Senator Stabenow. Great. Mr. Heinen, you had mentioned 
before both EQIP and CSP, and in looking at the numbers, it 
looks like the Conservation Stewardship Program is very highly 
used in Kansas. Are both of those programs, do you think, 
important?
    Mr. Heinen. Very important. In Brown County, we have pretty 
deep fertile topsoil, but we need to keep it where it belongs, 
and EQIP money helps us with conservation practices. The CSP 
program, I have family across the border in Missouri--but they 
are farmers and they still count.
    [Laughter.]
    Senator Stabenow. We will let them know you said that.
    Mr. Heinen. They really rely on the CSP program for 
nutrient levels. They do a lot of soil testing. They do a lot 
of precise fertilizer application and use that money to improve 
soil quality and water quality. Both important programs.
    Senator Stabenow. Great. Mr. Moore? We will just kind of go 
down the----
    Mr. Moore. I would echo what everyone here said. EQIP and 
CSP is something that is utilized and very beneficial to 
producers in Pratt County, Kansas, and all the other 104 
counties in Kansas. It is critical that we have the funding in 
place to support the conservation efforts of that, and I would 
throw CRP into that mix also. I mean, I do not know that the 
acre cap needs to go up, but CRP has played a huge role in the 
State of Kansas, and it has been a benefit. Our farmers have 
been participants in the Conservation Reserve Program, and we 
have been able to retire some land that Grandpa just should not 
have plowed.
    Senator Stabenow. Thank you. Mr. Peirce?
    Mr. Peirce. I have had firsthand experience with the CSP 
program from 2004. We were a Tier 4 qualifier, and we used that 
to grid-sample all of our fields and variable rate apply all of 
our fertilizer and stuff. So we have been able to cut back and 
be more efficient with what we do with that, and also that 
helped us kind of do our full transition into no-till as well, 
which has aided in water quality and soil quality. The EQIP 
program has kind of gone hand in hand with that.
    I just had someone out just the other day to look at some 
terraces that were put in around the early 1980s, and the tile 
terrace part of it--the system was only designed to last for 20 
years, and it has been almost 40, and he said it was time to 
redo it. But it has worked good for this long. Yes, we are big 
believers in the programs.
    Senator Stabenow. Thank you. Mr. Springer?
    Mr. Springer. Fully funding CSP and EQIP is very important 
to the pork industry. Firsthand, I am currently working on our 
farm with NRCS on a pipeline and pumping project for moving 
livestock waste, and all livestock production, we are stewards 
of the environment. We have some increased uncertainty from 
environmental regulations. Having EQIP and programs like EQIP 
and CSP help us bear the financial burden that comes as some of 
these regulations come down the line, because whether we agree 
or disagree with the regulation, taking care of the waters of 
Kansas and the United States is very important for our family 
and people in our business.
    Senator Stabenow. Thanks very much. Mr. Wood?
    Mr. Wood. I cannot really speak very intelligently about 
the CSP. It has not been used very widely in my part of the 
State--that I know of, anyway. EQIP is used quite a bit. I 
think it is kind of a carrot out there to help maybe get people 
to do some things that they want to do, want to be able to do 
conservation-wise, and it maybe just gets them a little bit 
over the hump to where they are able to afford to do that. So I 
think it is a pretty important program to maintain.
    Senator Stabenow. Thanks. Mr. Winter?
    Mr. Winter. Yes, I think both programs are very important. 
I myself have not participated in them, but my understanding is 
that, as you go west in the State, more and more sorghum 
farmers are using them. I would like to see the CSP adjusted in 
a way that would encourage more grain sorghum in rotation with 
other dryland crops.
    Senator Stabenow. Thank you.
    Mr. Chairman, I will turn it back to you. I think we have a 
second round, do we?
    Chairman Roberts. Yes, we do.
    Senator Stabenow. I will turn it back to you. I have got a 
couple more questions, yes. Thank you.
    Chairman Roberts. Just a couple more, if I might.
    Lucas, you and several others mentioned the importance of 
the Market Access Program and the Foreign Market Development 
Program. That is called MAP and FMD. Do not get it confused 
with the other FMD. There is no question in my mind that many 
of the challenges you face in the current farm economy can be 
eased by a strong trade policy. We both have talked about that 
at length. Can you provide examples as to how your industries 
are using the MAP or the FMD funds to develop and expand 
markets around the world?
    Mr. Heinen. I will do my best. I had the privilege of 
serving on the WISHH Committee of the American Soybean 
Association, and I might add I saw him in the hallway and I 
think he is still here, but Professor Flinchbaugh told me that 
Washington has its own language and the town runs on acronyms, 
and he is right.
    Chairman Roberts. Let me just intervene at this particular 
time.
    [Laughter.]
    Chairman Roberts. The MAP program is called ``Market Access 
Program,'' more access for our markets. It used to be called 
the ``Market Promotion Program,'' and I could never get enough 
votes for it when I was in the House, when I had the privilege 
of being Chairman of the Ag Committee in the House. So I, Pat 
Roberts, changed an acronym.
    [Laughter.]
    Chairman Roberts. I consider that one of my top 
achievements. I do not know if I will ever do any better. 
Instead of Market Promotion Program, which nobody wanted to pay 
for, the Market Access Program worked. So there you go. Fire 
away.
    Mr. Heinen. Okay. Nice work on the acronym change.
    Chairman Roberts. Thank you. Appreciate it.
    [Laughter.]
    Mr. Heinen. We had a program in partnership actually with 
K-State involved with WISHH in Pakistan. It starts with FMD and 
MAP money, and it built the ground level, and it got funding 
from other sources. But it was to use soybean meal in fish 
farming, in aquaculture in Pakistan. It took an industry that 
used no soybeans at all, no Kansas soybeans especially, to a 
significant consumer of soybean products in a fairly short 
period of time. It was a win-win for us, for the university, 
for the Pakistani aquaculture industry.
    Chairman Roberts. Is that still ongoing?
    Mr. Heinen. The funding--the WISHH side of that is not 
ongoing, no, but it laid the groundwork. The program is still 
in effect. The guys in Pakistan are still using the beans.
    Chairman Roberts. I appreciate that very much.
    Mr. Moore, corn growers would like to see the ARC-County 
program continued and improved. Any county-based program is 
going to have some level of differences between counties. Can 
you walk us through what you see are causing the most concerns 
with the program in its current form?
    Mr. Moore. I think it is just the yield data discrepancies 
that we face, and I think a lot of that is due to the 
reluctance probably that we see--we were told that there were 
data gaps because of the farmers' reluctance to fully 
participate in National Ag Statistics Service surveys. I think, 
like it has been stated up here earlier, that--I mean, I do not 
see why we cannot use RMA data for those yields, because it is 
provided. I mean, anybody that participates in the crop 
insurance program is providing that yield. RMA has it. So why 
can't we use it? That would go a long way in leveling the 
playing field from county to county on getting the data that is 
needed to implement the programs like they are designed to run.
    Chairman Roberts. I appreciate that. That is a very good 
suggestion.
    Mr. Springer, the pork industry, growing in Kansas, growing 
in Michigan. The Ranking Member has emphasized that expansion 
in her State. I understand one of the three new pork packing 
plants will be operational in Michigan by the end of the year. 
Given the positive growth that industry is experiencing, what 
impediments to growth have you encountered as a family business 
and as an industry more generally?
    Mr. Springer. Okay. Thank you, Chairman Roberts. 
Uncertainty is a killer in any business project. But in 
agriculture, we are really good at overcoming uncertainty and 
the unexpected. So I would like you to think this way: When we 
build a hog facility or a livestock feeding facility or buy a 
piece of land, we are making a long-term investment. In our 
business, those could be anywhere from a few thousand dollars 
to a few million dollars. Those are 30-year investments, and 
they are extremely expensive to repurpose, and they basically 
have one function.
    So we need to know the regulatory environment that we are 
working in when we make the investment. So anything--I would 
not say that there are specific things that have said, hey, 
that is going to stop the Springer family from growing, but 
when the combination of uncertainty from feed ingredient 
requirements, environmental regulation, if export and marketing 
agreements do not happen--and then the big one is animal 
housing. If we get an animal housing law that would prevent us 
from putting the number of pigs in our facility that we 
designed it for, then we have an issue, and it requires an 
investment. If we get enough of those issues at the same time, 
there will come a time that we say it is not worth doing 
anymore. So the management of the uncertainty.
    Chairman Roberts. Thank you for that.
    Lynda, you laid out quite the case for adjustments to the 
Market Protection Program, MPP--we have to have the acronym--in 
order to better serve dairy farmers. My question: For the first 
time in the history of mankind, can the dairy industry be able 
to stick together and agree to changes you would all like in 
the farm bill?
    [Laughter.]
    Ms. Foster. Your guess is as good as mine.
    I really think in the last couple of years the dairy 
industry has come together far more, or we probably would not 
have the MPP in the first place. The way it was designed, the 
first year a lot of dairy farmers signed up. Personally, we 
signed up I think at the $6 level. But when we had low prices, 
because of the distorted formula through that 10-percent cut, 
months when it should have kicked in, it did not because the 
wrong margin was there. So farmers could see from what was 
projected it was not going to pay.
    So the next year, very few signed up at $100, the basic 
catastrophic level, because you had to sign up, you were 
already in that program. Well, this last year, things did not 
look any better, so everybody practically signed up just at the 
$100 level. They were not signing up at the higher percentages 
because they are not kicking in.
    One of the reasons is we have--the way it was designed, it 
said for 2 months, January-February, March-April, had to be low 
in each of those 2-month segments. But if you were low in 
February and March, it did not kick in. Where they come up with 
one month is better than another month and you have to have a 
2-month average I have not figured out. Cows do not milk month 
by month. You know, you got to milk them every day. So that is 
one thing we would like to see changed, is some of those 
tweaks. But if we get some of those tweaks made, I really feel 
dairy farmers will come on board, because right now they are 
very--they are disgusted, they are disgruntled, because it is 
not working and we have had low prices and low margins.
    Chairman Roberts. I really appreciate that. Thank you very 
much.
    Senator Stabenow, do you have any further questions?
    Senator Stabenow. Thank you. Just a couple. One to follow 
up, Mrs. Foster, on that, we grow a lot of different things, 
and have a lot of different producers in Michigan, but dairy is 
really important for us, and I have heard from my dairy 
producers, milk producers as well, real concerns about the new 
program. Everything is complicated as we have put together 
pieces in the farm bill, but it seems like dairy is always 
particularly complicated just because of the different sizes 
and different regions in the country and so on.
    But you talked in your testimony about how other 
commodities have overlapping protection from the Farm Service 
Agency programs and Federal crop insurance, and that is not 
available for dairy farmers. So in addition to what we know in 
terms of the program that was put together that we need to fix, 
could you talk a little bit more about that?
    Ms. Foster. Well, when I have my crops, I can take out crop 
insurance, and I can do the ARP and the--decide on those other 
programs. But with dairy, I had to choose either the MPP or one 
of those risk marketing agencies, management ones, the LGM I 
believe it is, Livestock Gross Marketing, which I am not 
personally familiar with, but I know a lot of farmers used it. 
But we could not use both. We had to choose one or the other; 
whereas, other commodity groups have several choices and can 
use more than one.
    Senator Stabenow. That is something we need to take a look 
at.
    Ms. Foster. Just by the way, I saw a few of your dairy 
producers from Michigan just yesterday at the meetings. They 
are great people.
    Senator Stabenow. They are. They are.
    [Laughter.]
    Senator Stabenow. They are the best. Well, we cannot close 
out this panel, Mr. Chairman, without my asking about something 
that we worked so hard on together related to livestock last 
time, which was a huge, important, new funding piece that we 
included. I think the three livestock disaster assistance 
programs received all together, in permanent funding, something 
like $3 billion. It was one of the big things that we did in 
the farm bill. I am wondering, Mr. Clawson, how is that working 
from your perspective? How important are those programs to 
livestock industry and how much are the Kansas producers using 
these programs?
    Mr. Clawson. When the drought came about, it was used very 
heavily, the livestock disaster--the drought protection that we 
got, and a number of producers were able to utilize that, and 
thank you for adding that.
    Another provision is the Emergency Conservation Program, I 
think is what you call it. We had a huge wildfire last year, 
over 400,000 acres rangeland burnt in the southern part of the 
State, with fences and just totally devastated. There was a lot 
of people that donated hay that was needed right away, as well 
as fencing supplies and monetary funds. KLA and the Kansas 
Livestock Foundation helped disburse that. But on a longer-term 
fix, that Emergency Conservation Program has kicked in as a 
cost-share to put back these permanent fences. That has been 
just a godsend to those people because they are able to get 
that land back into production almost immediately. Where for a 
lot of them it might have been 3 to 10 years to get those 
fences back in to be able to finance them and get them put 
back, with this program it has been able to get the land back 
into production.
    As you well know, grass needs to be grazed, or else we 
start losing production on it. So we are able to put fences 
back in to have a structured grazing program to be able to take 
care of the grass.
    Senator Stabenow. Well, thank you.
    Thank you, Mr. Chairman. I appreciate the excellent input 
from this panel.
    Chairman Roberts. Thank you so much. Thank you so much. I 
think you deserve a round of applause, ladies and gentlemen.
    [Applause.]
    Chairman Roberts. We will now convene the final panel for 
today's hearing on the 2018 farm bill. This panel is composed 
of representatives who work in industries that support 
production agriculture and our rural communities. After all, 
you cannot grow food and fiber without credit or power or water 
and many other important functions performed by the industries 
on this panel. While the first panel is departing, I will 
introduce the second panel.
    Our first witness on this panel is Shan Hanes. Shan, if you 
will come back. Okay. We have got the monikers, and we have the 
people coming aboard.
    [Pause.]
    Chairman Roberts. Our first witness on this panel is Shan 
Hanes. Sshhh. It is amazing how that works.
    After growing up on his family farm in the Oklahoma 
Panhandle and graduating college, Mr. Hanes accepted the 
position as an ag loan officer for the First National Bank of 
Elkhart and Rolla in 1993, where he served as both an ag loan 
officer and IT officer for 13 years. In 2008, he became 
president and CEO of the First National Bank, a position he 
holds today. Shan, thank you for joining us today. You have 
come back, Shan.
    [Laughter.]
    Chairman Roberts. Now, that dates me an awful lot, if 
nobody in the audience can remember that was a movie by Alan 
Ladd, and he left, and little Brandon De Wilde came out and 
said, ``Come back, Shane.'' He is back. Now, come on.
    [Laughter.]
    Chairman Roberts. Next I would like to welcome Mrs. 
Catherine Moyer. Catherine, I believe our last meeting was just 
this past October in Allen for the Rural Broadband Roundtable 
that we hosted with FCC Chairman and fellow Kansan, Ajit Pai. 
It is good to see you again. Catherine is the general manager 
and CEO of Pioneer Communications, a telephone and 
communications company that serves residents and businesses 
across southwestern Kansas. She holds a bachelor's degree from 
Middlebury College and a law degree from Washburn University. 
She resides in Ulysses with her husband, Kevin. Welcome, Ms. 
Moyer.
    Ms. Kathleen ``Kathy'' O'Brien is representing our Kansas 
electric cooperatives today. Ms. O'Brien is the general manager 
of the Nemaha-Marshall Electric Cooperative in Axtell, where 
she has worked in a number of capacities for the past 26 years. 
She currently chairs the Kansas Electric Cooperative 
Association Board of Directors and is the first woman to hold 
that position. Thank you for joining us today, Ms. O'Brien.
    Our next witness is Mrs. Gena Ott. She joins us from 
Emporia and is representing the Frontier Farm Credit folks. 
Growing up on a third-generation farm in east-central Kansas, 
Gena developed a deep appreciation for agriculture and rural 
communities. She graduated from Kansas State University with a 
degree in agribusiness. In addition to Gena's three-decade 
career with Farm Credit, she and her husband have a small 
cattle operation. Gena, thank you so much.
    Mr. Derek Peine, chairman of the board of Renew Kansas, in 
Oakley, our next witness, is here on behalf of the Kansas Grain 
and Feed Association. Mr. Peine is the CEO of Western Plains 
Energy located in Oakley. He is a 1997 graduate of Kansas State 
University. He was recently elected chairman of the board of 
Directors of Renew Kansas, a State trade association that 
represents the independent ethanol plants in Kansas as well as 
farmers and those who provide services to the ethanol industry 
in our State.
    We also want to welcome here today on behalf of the Kansas 
Cooperative Council Mr. Greg Ruehle. Mr. Ruehle is president 
and CEO of Servi-Tech. That is the Nation's largest independent 
agronomic firm headquartered in Dodge City, Kansas, America. 
Mr. Ruehle manages a diverse staff of nearly 200 agronomists 
and laboratory technicians, information technology sales, and 
communications staff members across the Commission's eight-
State footprint. His family lives in Dodge City and maintains a 
diversified family-owned livestock operation in eastern Ford 
County. Welcome, sir.
    Mr. Clay Scott, the Kansas Water Congress of Ulysses. He 
hails from Ulysses where he farms corn, wheat, and raises 
cattle. Mr. Scott currently serves on the board of directors 
for the National Water Resources Association, as a delegate to 
the Kansas Water Congress, and a board member of the Southwest 
Kansas Groundwater Management District. Thank you, sir, for 
joining us.
    Cherise Tieben, city manager for the city of Dodge City, 
has been with the city for 26 years. Graduating from St. Mary 
of the Plains College, Dodge City, in 1989--God bless St. Mary 
of the Plains--she went immediately into full-time employment 
with the city and has worked in a variety of capacities leading 
to her current post as city manager. We sure look forward to 
hearing from you.
    We will now begin the testimonies of the final panel. I ask 
each witness to try to keep their statements to 3 minutes, as 
we have asked the previous panel. Ms. Ott, you may proceed. 
Where did we go with Ms. Ott? Right there. We decided to start 
in the middle on this one.

STATEMENT OF GENA OTT, FINANCIAL OFFICER, FRONTIER FARM CREDIT, 
                        EMPORIA, KANSAS

    Ms. Ott. Okay. Chairman Roberts and Ranking Member 
Stabenow, thank you for the opportunity to testify today on 
behalf of Frontier Farm Credit. My name is Gena Ott, and I am a 
financial officer and a 32-year employee of the Farm Credit 
System, and I have worked both in lending and in crop insurance 
roles. I respectfully request my testimony be entered for the 
record.
    Frontier Farm Credit has a lending portfolio consisting 
primarily of corn, soybeans, wheat, and cattle. Many of our 
customers also depend on off-farm income and farm program 
payments, including ARC, PLC, CRP, and CSP, to enhance their 
loan repayment capacity.
    To give you a high-level view of credit conditions in the 
Midwest generally, the upper 50 to 60 percent of our grain 
producers are holding their own, with many showing some minor 
profitability. The bottom 15 to 20 percent of grain producers 
are experiencing stress as a result of a combination of higher 
debt load, high cost of production, and overall lack of 
profitability.
    In the cattle sector, increases in cow numbers will cause 
fed cattle prices and margins to be under significant pressure, 
while cattle feeders will get some relief from cheaper calf 
prices.
    With our expertise and commitment to their success, 
adjustments are being made to sustain these operations through 
the present cycle. In all cases, these conversations are 
individual to the customer and to the operation, and we will 
work with them every step of the way. We were intentionally 
conservative in the good times so that we can be courageous 
during these more difficult times.
    From producers, we hear daily accounts of the importance of 
developing strong markets and reducing regulations to improve 
viability of their farms and ranches.
    The financial commitment required to grow an operation is 
especially challenging for less established producers. Frontier 
Farm Credit makes extraordinary efforts to support young, 
beginning, and small farmers. Our specialized lending programs 
use modified credit standards, and we underline the need for 
protecting against production and price risk with this segment.
    Mr. Chairman and Ranking Member Stabenow, I want to thank 
you, both of you, for your commitment to crop insurance. It is 
an important public and private partnership and a critical risk 
management tool for farmers. The strength of the current crop 
insurance partnership rests in the ability for a farmer or 
rancher to select products that meet their needs for 
individualized risk protection. As you know, the program is a 
top priority among all ag stakeholders.
    Producers who purchased crop insurance in 2012 mitigated 
the direct financial impact their operations would have 
experienced due to the drought that year. The crop insurance 
program performed as intended, averting the need for ad hoc 
disaster assistance.
    Similarly, the LRP, livestock risk protection, and the 
pasture, range and forage program have been effective for 
offering some risk protection to those in the cattle and grass 
sectors.
    Switching gears for a bit, I would like to direct your 
attention to my written testimony which highlights our grant 
programs, advancing agriculture education, young and beginning 
producers, hunger and nutrition, and essential services and 
disaster relief needs in rural communities.
    Our outreach helps support the organizations such as 4H, 
FFA, and the Kansas Farmer Veteran Coalition and a program that 
I am particularly proud to be involved with, Women Managing the 
Farm.
    Chairman Roberts, it is always great to have you back home, 
and we are proud of the work you do on behalf of us every day. 
Thank you, Ranking Member Stabenow, for coming to Kansas to 
listen. We know that you understand the challenges facing world 
communities in agriculture and ask you to share your knowledge 
and experience with your colleagues to help them understand, 
too, as you work through the farm bill.
    Thank you.
    [The prepared statement of Ms. Ott can be found on page 126 
in the appendix.]
    Chairman Roberts. Gena, thank you for your excellent 
testimony, and we are going to get straightened out here and 
start here with Mr. Hanes and go right down there, and if you 
really want to repeat that testimony, you can do that.
    [Laughter.]
    Chairman Roberts. We will jump right on down the line. Mr. 
Hanes, please.

STATEMENT OF SHAN HANES, PRESIDENT AND CHIEF EXECUTIVE OFFICER, 
 FIRST NATIONAL BANK OF ELKHART, ELKHART, KANSAS, ON BEHALF OF 
                THE AMERICAN BANKERS ASSOCIATION

    Mr. Hanes. Chairman Roberts and Ranking Member Stabenow, I 
am Shan Hanes, president and CEO of First National Bank in 
Elkhart, Kansas. I am proud to be an ag banker in a rural 
community for 20-plus years.
    Just so you know, First National Bank is a $78 million bank 
located in Elkhart, the county seat, with a branch serving 
Rolla. I appreciate the western representatives that you have 
on our panel. We consider Ulysses central Kansas.
    [Laughter.]
    Mr. Hanes. Dodge is eastern Kansas, since where Elkhart is 
at. We have 21 employees. We are a typical ag bank in Kansas. 
We are the largest lender in the county.
    In addition to my CEO duties, I am a member of the American 
Bankers Association and the Kansas Bankers Association. I 
appreciate the opportunity to present the views of ABA, KBA, 
and especially rural lenders and the impact of the Agricultural 
Act of 2014, better known as the ``2014 farm bill.''
    One of the biggest successes of the 2014 farm bill, as 
already stated, was the continued support of crop insurance. By 
providing support based on each producer's proven crop yields, 
crop insurance continues to provide a guarantee that helps 
lenders secure financing for operating credit. It is important 
that crop insurance works for all producers, especially as 
commodity prices have declined. Low commodity prices have hurt 
crop insurance's ability to provide a solid safety net, and 
this is concerning for everyone.
    Another success of the 2014 farm bill is the continued 
support of the Conservation Reserve Program. CRP is vital to my 
area. It provides another avenue for farmers to find productive 
use for their land. In addition, the Committee should be 
commended for its commitment to the Farm Service Agency's 
guaranteed lending programs. However, I believe there is a need 
to consider reforms to the programs, specifically to raise the 
lending limit cap on guaranteed ownership and guaranteed 
operating loans due to the risking cost of agriculture. The 
guaranteed loan programs have allowed our customers to continue 
to access credit from banks like mine as they grow, ensuring 
credit access for bank customers across the country.
    From a lending perspective, there needs to be consideration 
of changes to the ARC and the PLC programs. As you are well 
aware, commodity prices were much higher in 2014. With price 
changes significantly, producers need to have the ability to 
make elections on their farm programs on a yearly basis. 
Lastly, and most importantly, farmers currently do not receive 
their payments in the same marketing year. This has caused an 
issue for lenders as well as producers, as we cannot properly 
account for their payments as a part of their loan repayment 
strategy.
    I would like to point out that in 2016 farm banks like mine 
increased ag lending 8 percent and now provide over $100 
billion in total farm loans. It is also important to touch on 
the regulatory environment for lenders. Our main competitor, 
the Farm Credit System, has a regulator that focuses on them 
and only them. Banks have multiple regulators and often have to 
teach a regulator some of the intricacies of ag lending. This 
can be very frustrating when regulators go through the review 
of the bank both for the officer and for the borrower. 
Regulators often question the structure of ag loans, and every 
regulator seems to have a differing opinion on what is a safe 
ag loan. Despite these difficulties, I believe the banking 
industry is well positioned to meet the needs of rural America.
    Thank you, and I would be happy to answer any questions you 
might have.
    [The prepared statement of Mr. Hanes can be found on page 
80 in the appendix.]
    Chairman Roberts. Thank you, sir.
    Catherine Moyer, general manager of Pioneer Communications, 
Ulysses, Kansas--way back east.
    Ms. Moyer. Central Kansas.

    STATEMENT OF CATHERINE MOYER, GENERAL MANAGER, PIONEER 
  COMMUNICATIONS, ULYSSES, KANSAS, ON BEHALF OF THE NTCA-THE 
                  RURAL BROADBAND ASSOCIATION

    Ms. Moyer. Chairman Roberts and Ranking member Stabenow, 
thank you very much for the invitation to speak about rural 
telecommunications and the 2018 farm bill. I am Catherine Moyer 
from Ulysses. I am speaking today on behalf of Pioneer, as well 
as NTCA-The Rural Broadband Association. Pioneer is 
headquartered in Ulysses, Kansas. We have about 113 employees, 
and we serve 5,000 square miles. For those comparing, it is 
about the size of Connecticut, with about 3 million fewer 
people. We provide about 21,000 total connections--that is to 
wireline phone, to broadband, and to video services--over a 
network that utilizes a mix of fiber as well as copper and co-
ax. On average, we have about two customers per square mile.
    To better understand our service territory as well as the 
subjects covered in-depth in my written testimony that I will 
highlight, it is really important to understand what our 
service territory looks like. Of our 5,000 square miles, only 
15 square miles can be considered populated areas, which really 
leads to about 81 percent of our customers living in those 15 
square miles. The remaining 19 percent of our customers live in 
the other 4,985 square miles, and they utilize roughly 86 
percent of our network. So we are rural, and we have to serve 
everybody because, by legal obligation, we are a provider of 
last resort. So the challenges of distance and density hit very 
close to home.
    Our broadband networks are critical for the communities 
that we serve to overcome these distance and density concerns. 
Our networks allow ag producers and other rural businesses to 
communicate with suppliers and sell to new markets. They enable 
education of our children on par with opportunities in urban 
America, and they make our communities places in which people 
want to place business and they want to relocate there and 
remain there. In rural America, that translates to economic 
development that produces jobs and a vibrant rural economy.
    While the link between what rural telecom providers like 
Pioneer do and the witnesses you have already heard from, what 
might not be so obvious is why I am here talking about the 2018 
farm bill. Access to capital for rural broadband projects is 
limited. Companies like Pioneer have few options to finance 
network construction. It takes a mix of private capital as well 
as financing from a few committed, mission-driven lenders like 
RUS, CoBank, and RTFC to enable us to build networks that we 
use to serve our communities. Pioneer is a company that has 
borrowed from both our U.S. and CoBank, and I currently sit on 
the CoBank board of directors. I can vouch for the small 
committed universe of capital that is essential to our 
industry.
    It is imperative to continue to provide RUS with the 
resources that it needs to lend in support of rural broadband 
deployment. As Congress continues to grapple with where to best 
direct scarce resources, it is important to note that the RUS 
broadband loan programs make loans that must be paid back with 
interest--creating a win-win situation for rural broadband 
consumers and the American taxpayers.
    We urge the Committee to continue to support the RUS 
broadband loan programs at or above current funding levels as 
you work through the farm bill reauthorization process. These 
programs are so vital to the ongoing deployment and maintenance 
of advanced communications infrastructure throughout rural 
America.
    Working hand in hand with these programs is the Federal 
Universal Service Fund. USF ensures that reasonably comparable 
services are available in rural America at a comparable rate to 
those in urban America. USF promotes both availability and 
affordability. We continue to work with the Federal 
Communications Commission and urge the FCC to address the lack 
of sufficient USF funding for the goal of ubiquitous broadband 
availability.
    As part of a company that is deploying broadband to a very 
rural, hard-to-serve part of the U.S., I know these things to 
be true: The sustainability of our part of southwest Kansas is 
dependent on a broadband network that can move more and more 
data. Farms, the energy sector, and small businesses rely on 
our networks to make themselves more efficient and successful. 
Access to capital and a predictable USF program are paramount 
to deploying these vital networks.
    I believe Congress and the FCC share my aspiration of 
contributing to rural America's success, and I look forward to 
working together to achieve that success.
    Thank you very much, and I look forward to any questions 
that you may have for me.
    [The prepared statement of Ms. Moyer can be found on page 
109 in the appendix.]
    Chairman Roberts. Thank you.
    Kathleen O'Brien, representing Kansas Electric 
Cooperatives, please.

STATEMENT OF KATHLEEN O'BRIEN, GENERAL MANAGER, NEMAHA-MARSHALL 
              ELECTRIC COOPERATIVE, AXTELL, KANSAS

    Ms. O'Brien. Thank you--do you want to say something else?
    Chairman Roberts. No. [Laughter.]
    Ms. O'Brien. All right. Thank you, Chairman Roberts and 
Ranking Member Stabenow, for inviting me to testify. My name is 
Kathy O'Brien. I am the general manager of Nemaha-Marshall 
Electric Cooperative in Axtell, Kansas. While the first 
business priority of electric co-ops is to deliver reliable, 
affordable electricity to our members, our purpose is much 
greater than that. We are the engines that drive economic 
opportunity across much of rural America and improve the lives 
of our members. That is why the farm bill is essential for co-
ops, for Kansas, and for the country. It contains important 
rural development tools that support our efforts to strengthen 
our communities.
    Since 1936, loans from the REA, now called the ``Rural 
Utilities Service,'' have helped build, expand, and improve the 
infrastructure necessary to provide power, deliver clean water, 
and other necessities across rural America. It has been the 
most successful public-private infrastructure investment 
program in the history of the country. RUS loans help electric 
co-ops reduce costs and improve reliability for our members by 
financing basic maintenance like replacing poles and wires. But 
it also helps us fund projects to make our systems more modern, 
efficient, and secure.
    In just the last decade, RUS loans have helped my own co-op 
move from a system where co-ops read their own meters and paid 
their own bills based on a rate chart to a more technologically 
advanced, cost-effective system that allows us to read meters 
remotely and allows members to monitor their own electric 
usage.
    We have historically enjoyed strong support for robust 
funding for RUS, in large part because we are such a good 
investment for the Federal Government. We ask that you help 
maintain that support.
    We have also appreciated working with the Committee over 
the years to help make the RUS more streamlined and efficient, 
and we look forward to exploring new ways to continue to 
improve the program.
    In addition to investing in the electric cooperative 
network, the fees paid on RUS loans are used to fund rural 
economic development loans and grants. Five years ago when I 
was here, I gave an example of how these zero interest loans 
helped finance an expansion of Koch and Company--pronounced 
``cook'' in northeast Kansas, ``coke'' in Wichita--a cabinet 
maker in my home town of Seneca, Kansas. I am pleased to say 
that original $450,000 investment continues to yield a great 
return. They have more than doubled their payroll since 2011 
and now employ around 650 people in several States. Electric 
cooperatives continue to enjoy a productive partnership with 
the Federal Government and with the communities we serve to 
promote the health of rural America.
    We look forward to continuing to work with you toward that 
important goal, and I am happy to answer any of your questions.
    [The prepared statement of Ms. O'Brien can be found on page 
122 in the appendix.]
    Chairman Roberts. Thank you, ma'am.
    Derek Peine, chairman of the board, Renew Kansas, Oakley, 
Kansas.

  STATEMENT OF DEREK PEINE, CHAIRMAN, RENEW KANSAS, AND CHIEF 
 EXECUTIVE OFFICER, WESTERN PLAINS ENERGY, LLC, OAKLEY, KANSAS

    Mr. Peine. Thank you, Chairman Roberts, Ranking Member 
Stabenow, for providing me the opportunity to be with you here 
today. My name is Derek Peine, and I am here today representing 
Renew Kansas, our State trade association that represents the 
12 independent ethanol production facilities in Kansas and 
those who provide services to our industry. I currently serve 
as the chairman of the Renew Kansas board, and I am also the 
CEO of Western Plains Energy, a mid-sized ethanol plant located 
in northwest Kansas.
    Let me start by sharing a key point about the ethanol 
industry. Western Plains Energy, like most ethanol plants 
today, was founded with two simple goals in mind. First, 
ethanol was a chance to provide additional demand for local 
crops to increase grain values. Second, it was an opportunity 
to provide much-needed jobs and economic value to our rural 
communities. Today, the 12 plants in Kansas do just that. We 
produce over half a billion gallons of ethanol annually, and we 
create a local stable market for approximately 200 million 
bushels of Kansas-grown corn and sorghum. Each of these plants 
is located in a rural area, and we provide more than 380 direct 
jobs spread across the State.
    Over the last 10 to 12 years, the ethanol industry has been 
the predominant outlet to absorb the ever-increasing corn and 
sorghum production volumes. Today more than a third of those 
grains grown across the U.S. is converted into biofuel. 
However, we are now reaching the point again where crop yield 
improvements are outpacing demand, and the farm economy is 
struggling due to oversupply and depressed pricing.
    The good news is that the ethanol industry can help to 
absorb those increased volumes. We are working hard to increase 
the demand for our products and simultaneously invest in 
innovation and improvements to increase our own production 
capacity.
    As an industry, we are starting to grow domestic demand by 
developing markets for E15, a mixture of 15 percent ethanol and 
85 percent gasoline. We have worked successfully with the 
privately funded Prime the Pump Program and USDA's Biofuel 
Infrastructure Program to provide consumers with a choice to 
purchase E15 fuel.
    We have also focused on increasing product demand 
internationally, and the USDA Foreign Ag Service trade 
promotion has been a key component to ensuring we can expand 
those export markets.
    The ethanol industry can provide additional support to the 
farm sector by providing an outlet for the increased grain 
supplies, but we need your help. As Committee members and 
policymakers, we need your leadership and advocacy for policies 
supportive of renewable fuels, including those not related to 
the farm bill.
    My written testimony provides more specific details, but in 
short, we need your support to help us open free market access 
for consumers to purchase cleaner, cheaper, and better E15 
fuel. We need to continue to advocate for fair trade with our 
international partners with countries such as China. Finally, 
we need support to not change the Renewable Fuel Standard. 
While this policy is not related to the farm bill, it is the 
integral component to the success of farmers here in Kansas and 
America.
    I want to close by thanking you for allowing me the 
opportunity to testify here today. We are proud of the work 
that America's ethanol industry does to help the American 
farmers and ranchers succeed. Thank you.
    [The prepared statement of Mr. Peine can be found on page 
130 in the appendix.]
    Chairman Roberts. Thank you, Derek.
    We have now Mr. Greg Ruehle, president and CEO, Servi-Tech, 
Inc., in Dodge City, Kansas.

    STATEMENT OF GREG RUEHLE, PRESIDENT AND CHIEF EXECUTIVE 
OFFICER, SERVI-TECH LABORATORIES, DODGE CITY, KANSAS, ON BEHALF 
               OF THE KANSAS COOPERATIVE COUNCIL

    Mr. Ruehle. Mr. Chairman and Senator Stabenow, thank you 
for the opportunity. Let me join the chorus of folks who have 
recognized your commitment to kick off the field hearings on 
the 2018 farm bill here in Kansas.
    I am here today representing the Kansas Cooperative 
Council, of which we are a member, and I will talk about that a 
little bit before I get into the statement. Servi-Tech is a 
federated cooperative, and, Senator Stabenow, I really 
appreciate your reference to the Capper-Volstead Act. 
Obviously, those of us who represent the cooperative community 
know well and appreciate the value of that act and the 
opportunity for us to do business.
    As a federated co-op, we are owned by 63 other 
cooperatives, so we may be kind of the unicorn up here at the 
table, and we really appreciate and value that cooperative 
model, and we are always happy to speak to that.
    The Kansas Cooperative Council, though, has a broad base of 
membership. Lots of them are represented up here at the table, 
and I want to be careful not to repeat testimony that has come 
from them, whether it is in electricity or telecommunications, 
lending, et cetera, but focus in on really two areas that the 
Co-Op Council has a tremendous interest in.
    The first is the Working Lands Programs, and I appreciated 
that dialogue in the first panel around how to make those 
programs better. There were some good references both around 
EQIP and around CSP and the CREP program.
    One of the things I think we are undervaluing, though, is 
the level of technology that has evolved around conservation 
tillage, so no-till, limited tillage, vertical tillage, all of 
those practices are increasing in their application on acres 
today. Their ability to help hold that soil in place is 
valuable to us, and I think it allows us then to look at those 
working programs with maybe a different perspective in the 2018 
farm bill, and that is to really focus the dollars on the acres 
where the impact can be the greatest.
    Those other acres, we are going to need to feed a growing 
global population. We are going to need those acres in 
production growing row crops. Whether that is a crop of corn 
under irrigation or a crop of sorghum in a dryland situation, 
those are important crops to us from a domestic and 
international standpoint. So the council would strongly 
encourage the Committee to give a hard look at those programs 
to make sure that they are relevant to the level of technology 
that is available in agriculture today. The role that farmers 
and ranchers play in conservation is significant, and we do not 
need a Federal farm policy that ties one of their hands behind 
their backs. So in that vein, we would be happy to work with 
the Committee as the debate goes forward.
    The other area is the area of credit, and you heard a lot 
about that in the first panel as well, the role and then the 
need for credit that we have today in a growing global 
agricultural environment. At Servi-Tech, we utilize both Farm 
Credit Service lending and private lending. It is important for 
us to have those opportunities and to be able to tap into both 
of those markets. So we will just continue to make sure that we 
encourage those programs being in place. Strong support for 
crop insurance as we go through the debate in the 2018 farm 
bill.
    With that, I would wrap it up, and I would let the folks in 
the audience know that the screens up here start at 3 minutes 
and they go to zero, and then it turns red, and I am waiting to 
see if lasers or something shoot out of that if you go too 
long. So I do not want to make the lasers come out, so with 
that, Mr. Chairman, I will wrap up my remarks, and I would be 
happy to answer questions.
    [The prepared statement of Mr. Ruehle can be found on page 
139 in the appendix.]
    Chairman Roberts. Well, whether or not there are lasers is 
highly classified.
    [Laughter.]
    Chairman Roberts. But I think the worst you could expect is 
[tapping] from me, and also from the distinguished Ranking 
Member. I have not done that because every one of you has tried 
to stay within the 3 minutes, plus the fact every one of you 
has given us very valuable information. So when that turns red, 
well, take a chance and keep going.
    [Laughter.]
    Chairman Roberts. Mr. Clay Scott of the Kansas Water 
Congress, from Ulysses, Kansas.

STATEMENT OF CLAY SCOTT, KANSAS WATER CONGRESS, ULYSSES, KANSAS

    Mr. Scott. Ranking Member Stabenow, welcome to Kansas. 
Chairman Roberts, welcome home. Thank you for holding this 
hearing today and for your attention to the many issues facing 
rural America and our Nation. The farm bill is one of the most 
important pieces of legislation the Congress will consider over 
the next few years, and this legislation--and its effects on 
water infrastructure--helps ensure our Nation has a diverse, 
safe, reliable, and affordable supply of food.
    My name is Clay Scott, and in addition to farming and 
ranching, I am actively involved in water, presently serving as 
a delegate to the Kansas Water Congress, a member of the 
National Water Resources Association, and a current board 
member of our local Southwest Kansas Groundwater Management 
District, as well as other local and regional groups working on 
water conservation.
    The NWRA and Kansas Water Congress members provide water to 
millions of individuals, families, and agricultural producers 
through local, State, and national water projects that support 
our communities, the economy, and the environment. The 
connection between agriculture and water is clear and of great 
importance. As a reliable supply of clean water is key to 
providing healthy, high-quality, and inexpensive foods that our 
families enjoy, the extent of this was greatly challenged 
during the recent drought in Kansas, and much of the Nation was 
put under real challenges, especially in our industry, which 
spurred further review and focus to conserve and extend our 
resources and implement new technologies and practices for 
greater efficiency and higher-value uses. It also revealed the 
irreplaceable value of water infrastructure and the need to 
maintain and improve its management. Properly done, we are able 
to provide water for our cities, farms, and livestock and 
affordably transport our grains and fertilizers while capturing 
flood flows and resupplying depleted reserves.
    As this new farm bill is written and implemented, our 
Nation's water infrastructure systems, which carry the fuel, 
fertilizer, and grains throughout the heartland and supply 
water for drinking and irrigation across the West, are aging 
past their projected life spans. The adequate care and updating 
of our water management systems remains key, not just for food 
production but for power generation, manufacturing, health, and 
safety.
    As ranches and farms and cities look to the future, a 
secure supply of water is critical to further development and 
adoption of new technology. Water conservation and generating 
real opportunities for our next generation fall right in line 
with this.
    As many individuals, groups, and organizations here are 
working hard to improve the livelihood of agriculture in Kansas 
and the United States, and from my local water board and the 
Kansas Water Congress, who represent many of my neighbors and 
much of Kansas, to State and national organizations such as the 
National Water Resources Association, we appreciate your time 
and consideration of our testimony and hope you will utilize 
their expertise when needed. The new farm bill must change from 
the era of the past and focus on the needs and vision of the 
future of agriculture, and while placing a strong commitment on 
water infrastructure.
    Thank you for your time.
    [The prepared statement of Mr. Scott can be found on page 
144 in the appendix.]
    Chairman Roberts. Thank you.
    Cherise, thank you so much for coming, and thank you for 
putting up with Ken Strobel all those years. Thank you for 
taking over, and it is good to see you here.

 STATEMENT OF CHERISE TIEBEN, CITY MANAGER, DODGE CITY, KANSAS

    Ms. Tieben. I am pretty confident I can be shorter than 
Ken.
    [Laughter.]
    Ms. Tieben. Mr. Chairman and Ranking Member Stabenow, 
welcome to Kansas. I am Cherise Tieben, city manager of Dodge 
City, Kansas, the proud home community of Senator Pat Roberts 
that is now recognized as rural. Thank you for allowing my 
testimony about a rural housing challenge with a positive 
outcome as a result of your successes in the last farm bill.
    In 2008, community leaders recognized a significant housing 
shortage, and a housing study was commissioned to find out why 
the lack of quality affordable housing did not exist in Dodge 
City--or existed in Dodge City, why people were living in 
unlivable conditions and paying dearly to do so, why the 
housing limitations were posing barriers to recruiting, 
retaining, and expanding the local workforce, and why employers 
were housing new recruits in hotels and the individuals would 
leave the community after 6 months because they could not find 
affordable housing.
    The housing study indicated that we needed to build 568 
single-family homes and 379 multi-family homes varying in price 
ranges in a period of 5 years. We had built 64 units in the 
previous 5 years. So the task did seem rather monumental.
    The housing assessment highlighted the serious lack of 
inventory for starter homes for first-time home buyers. We had 
44 homes on the market and should have had 140. We needed 
owners to graduate up in the market to make homes available for 
those desiring to enter the ownership world. We addressed that 
locally with new developments. However, the increasingly 
conservative nature of banks and the lack of available stock 
were obviously problematic, especially for our young families 
looking to purchase their first homes.
    The study revealed that USDA rural development programs 
were available in Ford County but not in Dodge City, forcing 
individuals needing assistance to buy or build outside of the 
city limits, which were stretching our abilities to provide 
service.
    We brought this to the attention of Senator Roberts, who 
successfully went to work on our behalf to increase the 
population limits. Since May of 2014, the effective date of the 
population expansion, Dodge City alone has had 94 USDA-
guaranteed loans issued totaling $9.9 million in investment.
    There are four southwest--wait, it is eastern Kansas, 
right?--four southwest Kansas communities of like size, and we 
have all had similar successes utilizing USDA rural 
development. Businesses are now being retained and recruited to 
our communities and regions due to the population changes in 
the last farm bill. For that, we thank you, Senator Roberts, 
for being our champion, and to you, Senator Stabenow, for the 
hard work. The rewards can easily be seen in southwest Kansas.
    Thank you for the opportunity to testify, and I am pleased 
to answer any questions.
    [The prepared statement of Ms. Tieben can be found on page 
167 in the appendix.]
    Chairman Roberts. Thank you, Cherise.
    Senator Stabenow, I have two or three here, and then I will 
recognize you. Then we are going to wrap it up.
    Thank you all for coming and taking time out of your 
valuable schedule to share your testimony with us. Clay, your 
testimony touches on an issue that is terribly important to 
Kansas farmers, particularly those out in the western part of 
our State where the Ogallala has been. There used to be as much 
water in the Ogallala as one of the Great Lakes, and now that 
is just not the case. Water is the lifeline for agriculture. 
What policy changes should Congress consider as it reviews USDA 
conservation programs--I do not want Federal water management. 
We can do that ourselves, thank you very much. But what policy 
changes should Congress consider as it reviews USDA 
conservation programs to further incentivize the efficient use 
of water while also supporting agricultural production?
    Mr. Scott. Thank you. I think one of the most beneficial 
programs we have seen at times has been the EQIP program, 
especially in times of drought when conservation is needed the 
worst. It enables farmers who are already suffering from the 
effects of a drought to utilize programs that, even though it 
is probably pretty dire financial times, they are able to go 
ahead and make those adjustments and changes.
    Another aspect of that is there is a lot of conservation 
being done over the aquifer right now, regardless of whether or 
not it is through a Federal program or not. I think in the 
great majority of southwest Kansas over the aquifer, that new 
production was shut down in the early 1990s for new 
appropriations and at the direction of local farmers and water 
users.
    We are making steps forward to continue to reserve that 
while improving the economy. Around Ulysses, we are in the 
heart of the dairy boom, and with the new plant in Garden City 
of Dairy Farmers of America, several hundred million dollars' 
worth of investment there, we continue to see that expansion. I 
see a lot of it done without the Federal assistance side, just 
from real hard work.
    The EQIP program, though, has its values, and especially 
just in this last year, I participated in a Conservation 
Innovation Grant with the Dragon-Line, as it is called by 
commercial standards, the vertical drip lines for sprinklers. 
That is an outstanding product. It saves water, it maintains 
the yields, and it preserves and extends the aquifer.
    Chairman Roberts. Thank you for that. In visiting the 
Nation of Israel, which used to be a water importer and food 
importer, they are a food exporter and a water exporter now. 
They have wave energy. They have evapotranspiration. They have 
conservation on the water that they use constantly and then run 
it through a process. It is not potable water, but it certainly 
can be used on crops. They discovered wells. It is just an 
amazing thing.
    But one of the things they really use is drip irrigation, 
and not with pipes but with a plastic that is a new kind of 
plastic that is just rather amazing. I am very hopeful that K-
State and the person that I met that really was the godfather 
of this effort, who I said he ought to come and visit K-State, 
and I am still trying to get that worked out. But I was a 
little stunned by the progress that they made, and a lot of it 
was like southwest Kansas when they started out. I think they 
are about 5 to 10 years ahead of us. I know that we have a lot 
of investment with regards to circle irrigation, a very 
expensive thing to do, but also if you do not do that, why, you 
are not in irrigated farming. I would hope we could encourage 
people to take a look at that drip irrigation, which I think is 
what you have been talking about. Thank you for that. I think 
this is one of the biggest problems that we face out in our 
country.
    Greg, in your testimony you highlight support for the Rural 
Economic Development and Loan Grant program. It is important to 
link cooperatives with their local communities to spur economic 
development. Could you provide an example of how these programs 
impact not only businesses like yours but the rural communities 
they serve as well?
    Mr. Ruehle. Certainly. I am going to go back and play off 
of Cherise's point a minute ago. With our headquarters in Dodge 
City and the growth that we see in our company from a staffing 
standpoint, a great challenge was to be able to entice people 
to move to southwest Kansas when there was not affordability 
housing available to them. I am one of those. Our family just 
moved to southwest Kansas about 2-1/2 years ago--or a year and 
a half ago, and we are one of the folks who benefits from the 
fact that there were rural housing funds available to develop 
an area of the city. Builders have come in. They build homes 
there now. They are priced in all different price ranges, which 
fits the population of Dodge City very well. So that is one of 
the areas.
    I think the other is--and this is partially federally 
funded. I do not know that it falls under as directly as maybe 
your question requested, Senator, but it plays back in Mr. 
Scott's reference to some technology on pivots that allows us 
to more efficiently utilize limited water resources in an 
irrigated agricultural environment. Now, whether that is a line 
that drags on the ground and emits close to the ground, you 
lose that evapotranspiration loss, whether it is the drip tape 
that you mentioned a minute ago, the ability to fund those 
through either Federal funds or through the groundwater 
management districts, which there is a lot of that work being 
done in the groundwater management districts in western Kansas, 
need the kind of support that I think you are speaking of here, 
and it is going to take a partnership of Federal funds and 
local funds and private funds, frankly, to be able to make that 
happen.
    Drip tape installation can cost several thousand dollars an 
acre, and with commodity prices at the point that they are, it 
is tough to make that work without a concerted Federal, local, 
and State partnership.
    Chairman Roberts. I appreciate that.
    Catherine, 2 years ago, we held a high-tech precision 
agriculture event in Gypsum with K-State's Polytechnic campus, 
a number of our Kansas equipment manufacturers and producers. 
They even got me to fly a UAV capable of producing high-
resolution images, measuring a number of variables such as 
plant health, the presence of pests, weeds, and so on. Can you 
talk about the role our rural providers play in supporting 
these advancements in precision agriculture? It was not that 
hard. I just took control, it went this way, it went that way, 
this way, that way. We can do that.
    [Laughter.]
    Chairman Roberts. I do not know what the hell we are going 
to do with it in Washington, but at any rate, what got me was--
I mentioned to somebody there, I said, ``What about the farmer 
who goes in his pickup with his dog every day just to check the 
low point in his ground?'' I do not want those days--I mean, 
what are you going to do if you cannot do that? But at any 
rate, please answer the question if you can sort of discern 
what I have been trying to say.
    [Laughter.]
    Ms. Moyer. Well, first I would suggest you do not fly a 
drone in Washington. That probably leads to trouble. But I 
think UAVs or drones allow our farmers to have a really unique 
look at their farmland and their cattle operations. The data 
that they are going to gather, they are going to be held on 
board or be transmitted to a viewing device via radio 
transmission. So I think the question is really what you do 
with that data once you have gathered it, and that really is 
bringing it back to your office, your desktop, your computer, 
downloading it, and then combining it with other forms of 
precision ag.
    I talk to the farmers in our service territory, and they 
use it for looking at water application and seed application, 
fertilizer application and soil, and take all of those things 
together, and it is the big data analytic piece of it, I think, 
that is the most important.
    Now, the question, I think, that really goes to my 
wheelhouse is: How do you move that data? Because they are 
going to move it from farm to farm or within the farm, but they 
are also going to move it to seed companies and fertilizer 
companies to ask for help to discern what this data looks like.
    So we are in a very unique position to supply those pieces, 
the broadband, the high-speed broadband data connections, the 
transit to those seed and fertilizer companies, as well as the 
cloud storage that you need to aggregate it all to read it. I 
think that is where we work hand in hand with agriculture. You 
know, I think that's the piece that really makes our farmers 
much more efficient, and in today's world, especially with 
input prices going up and the low commodity prices, that 
efficiency piece, and then how to best make your farm efficient 
and then productive is the key piece, and that is really where 
I think we step in to form that partnership and look forward to 
continuing that.
    Chairman Roberts. I appreciate that very much, and I 
enjoyed that experience very much.
    Kathy, in your testimony you highlight some regulatory 
decisions made during the last administration, specifically the 
Waters of the US. Staff is going to really get upset with this, 
but we had Gina McCarthy and we had 11 Senators. The bill was 
two pages, Deborah, and in that, it said normal farming 
operations are exempt. Do you remember that?
    Senator Stabenow. I do.
    Chairman Roberts. Yeah. Then there was 88 pages of 
regulations in about 10 point font. I mean, you really had to 
get a magnifying glass to figure out what was going on. No 
lawyer of any farm organization or commodity group or anybody 
could figure out where we were with regards to WOTUS. Now, of 
course, that is in the courts. We do not have a CRA on it, 
which is what I said before, but that is not accurate because 
it has to work through the courts.
    Then we have the lesser prairie chicken. Everybody knows 
about the lesser prairie chicken. Did you know that when Mother 
Nature came to our rescue and it rained, the habitat for the 
lesser prairie chicken increases? Then the lesser prairie 
chicken comes back. Then he or she becomes the greater lesser 
prairie chicken.
    [Laughter.]
    Chairman Roberts. I tried to convince the EPA of that, or 
the Department of Interior, and I could not get to first base. 
Now, that is just crazy. Then I want to know who is really 
counting the lesser prairie chickens. We even had a situation 
where you could not have an oil rig on your land because the--I 
cannot remember which falcon it was, but it was a very mean 
falcon because it would go after the prairie chicken. So you 
could not have an oil rig on your land if it is working. They 
did not know that that particular falcon was slower than the 
lesser prairie chicken, who is a pretty fast lesser prairie 
chicken. I mean, that is why they call it the lesser prairie 
chicken.
    So I understand that our Nation's electric co-ops have 
concerns regarding the Clean Power Plan. Have you or any other 
co-ops been able to produce any real-world numbers, whether 
that could be an economic impact or the reliability impacts in 
rural America? Give me some hope here.
    Ms. O'Brien. Well, I am not quite an expert on the Waters 
of the US, but for the Clean Power Plan and addressing the 
lesser prairie chicken, I do not have specific numbers because 
primarily the local impacts in Kansas may differ from what may 
impact the Nation. But whatever the impact, even a small 
increase would impact the farmers. Just as the farmers in the 
previous panel strive to be good stewards of the land, electric 
cooperatives understand the importance of being good stewards 
of the environment. Even so, co-ops across the country want to 
be part of a solution to the Clean Power Plan.
    Initial measures taken to meet the mandates, because we 
thought it was going to progress, have already increased our 
wholesale power costs and in turn have increased the electric 
bills on the farmers you just heard from on the previous panel. 
While we cannot predict the negative economic or reliability 
impact of the Clean Power Plan, we in Kansas have already seen 
the lack of economic development because of the lesser prairie 
chicken and the increased costs associated with protecting the 
species. Electric co-ops have even had to recommend to people 
who run electric power that they might have to bury lines, and 
the cost is just so prohibitive.
    We are happy that these rules are on hold, and we think we 
have a lot to offer in the conversation going forward on the 
Clean Power Plan. The lesser prairie chicken, too, we in 
northeast Kansas do not have the lesser prairie chicken, but we 
are sympathetic to the issues that our friends in southwest 
Kansas--or eastern Kansas, whichever--are having because we do 
not know what the next species might be. So we certainly have 
an interest in that.
    Chairman Roberts. I appreciate that.
    Senator Stabenow.
    Senator Stabenow. Well, thank you, Mr. Chairman, and thank 
you to each of you. You really reflect the breadth of issues 
involved in what we call the farm bill, which is really the 
economic development plan for small towns in rural America, as 
well as food policy for everybody. I very much appreciate all 
of the things that you are involved in.
    When we look at rural development, as an example, this is 
really about quality of life. When I think about growing up in 
a small town in northern Michigan, one of the real concerns has 
always been when we go off to college, who will come home, and 
start the business and go back to the farm and be in the 
community? Will there be a rural hospital? Will there be 
doctors? Will there be the ability to have a business? Will 
there be broadband? All of those things that allow people to 
live and stay in small towns.
    So because I think broadband is so important, I wondered, 
Ms. Moyer, if you might just expand a little bit on some of the 
challenges around broadband infrastructure. I have an ongoing 
small business tour in Michigan and I stop in small towns. 
Inevitably I hear about the fact that somebody has started or 
wants to start a small business, and they want to sell, they 
want to export, they want to stay in their small town but still 
have access to the world. Broadband is incredibly important to 
making that happen.
    Telemedicine is also a very big deal. We have a lot of 
rural hospitals in Michigan and across the country. The ability 
of the University of Michigan Hospital or Michigan State or the 
other major hospitals to connect and partner with each other, 
as well as to connect with people in their home through 
telemedicine is so important.
    So when you look at the challenges, to me this is an 
incredibly important piece that touches so much in terms of 
creating quality of life and economic development and so on. Is 
it technical assistance? Is still just an issue of capital? Is 
it both? I mean, what really needs to be done so that we are 
providing those opportunities in small towns?
    Ms. Moyer. I think you have highlighted exactly why we need 
it, whether it is telemedicine or attracting and retaining 
businesses and encouraging people to come back once they have 
graduated from high school, gone to college, and let us bring 
them back.
    I think personally speaking, from the Kansas provider 
perspective, it really still comes down to capital. It is 
access to capital, but then also a way to pay back the capital 
that you borrowed. It is not an easy business plan to make, 
especially when you talk about extremely sparse population in 
our service territories. When you talk about, as I said having 
19 percent of our customers living across over 4,900 miles, you 
cannot make that business plan with an expectation that only 
they pay for the entire transport network. That is where we go 
hand in hand with universal service, and it really falls under 
the purview of the Federal Communications Commission as well as 
Congress. But those two pieces go hand in hand. It is the 
ability to actually access capital and have a predictable and 
sufficient universal service program that will put some of that 
money back into those areas.
    I do want to highlight here that the universal service 
program is not--they do not hand out money to people; rather, 
we borrow the money, we spend it, and a couple of years later, 
we start to get some money back from the universal service 
program but also from our end-user customer. So those are the 
pieces, I think, that are so important to building a robust 
broadband network throughout rural America.
    Senator Stabenow. Well, I hope that we are going to be able 
to help with that, not just through the farm bill but through 
other mechanisms as well, because I think it is absolutely 
critical and touches the complete quality of life in rural 
America.
    Mr. Peine, I cannot let you go without talking about the 
importance of the Renewable Fuel Standard, and it certainly is 
something that impacts us in Michigan as well as Kansas and 
across the country. I have to say, as somebody who is a big 
NASCAR supporter, we do two big races in Michigan every year. 
Mr. Chairman, you are welcome to come. We would love to have 
you. They drive E15.
    Mr. Peine. Correct.
    Senator Stabenow. Right? That is all they drive is E15. So, 
if you want a faster car, that is what you want to drive.
    I wonder if you might speak a little bit more about the 
Biofuels Infrastructure Program. There are a lot of 
opportunities in the bio-based economy, and one of the things 
that was important to me was to have a funded Energy Title in 
the farm bill. We have had Energy Titles before, but they have 
not had any money in them, or just authorizations, and we 
actually put dollars in there for not just biofuels 
infrastructure and energy efficiency, which is really 
important, but the bio-based economy. Before you answer, let me 
just say I will do a commercial for Michigan. We are doing a 
lot of work around bio-based economy, as you know, in 
materials, with corn-based or wheat-based, soy-based materials 
and so on as materials and products--clothing and soaps. One of 
the things that we do now is seats of cars, and this is not 
made with corn, but with soy. I am sure it is in a lot of 
vehicles, but I know right now if you buy a Ford vehicle, for 
instance, you get a new F-150 truck, you are sitting on soy-
based foam in the seats. There is soybean in the seats, so if 
you get hungry, you have got something you can chomp on while 
you are driving along.
    But I raise that only because--and I know I can go on about 
corn-based products the same way--corn in the automobile, is 
used in the plastic cup holders and the dashboard, and you can 
do all kinds of things with it. But when we look at jobs and 
bringing together agriculture and manufacturing, I think there 
is a lot of opportunity in what we call the bio-based economy 
that is really exciting, and I wonder if you might just speak 
about what you see in that area.
    Mr. Peine. Sure. Thank you for the question. Your first 
comment was about the Renewable Fuel Standard, and the RFS is 
really the bedrock that has helped launch the ethanol industry 
that is based on corn and sorghum today. But the broader 
industry is really about bio-based technology. As the ethanol 
industry has expanded, one of the things I see happening today 
is that bio-based economy is starting to peak out a little bit. 
We are starting to see ethanol companies that have learned how 
to run a biotechnology refinery start to look at new 
technologies, whether that is converting their existing plant 
to a new biotechnology end product or putting on Bolt On 
technologies that could supplement with their ethanol plant.
    Once you take the starch from the grain into sugar, your 
opportunity to turn that into lots of new materials beyond just 
ethanol becomes wide open. But the challenge is always around 
economics and the incentives to have people invest their money 
with surety that the Government will stand behind them. The 
Renewable Fuel Standard is a great example. It has helped 
blossom the industry, but as time has gone on, there has been 
pushback regarding repealing and reforming the Renewable Fuel 
Standard.
    The challenge to our company and to investors around the 
country is if there is no confidence or if the confidence is 
shaken that the Renewable Fuel Standard could change or be 
eliminated, you are more resistant to put in that capital. You 
are more resistant to go down the road of a new biotechnology 
product.
    Senator Stabenow. Mr. Chairman, I have a lot more 
questions, but I know we are coming to the end of the 
afternoon, so thank you to all of you. I did want to just say, 
Mr. Scott, I appreciate your work in bringing agriculture's 
voice to the Kansas Water Congress. Coming from a State 
surrounded by water--we have 20 percent of the world's fresh 
water all around Michigan--we like to say we are the ocean 
without the salt or the sharks. So we welcome everyone to come 
and have a chance to see that beauty. But I did appreciate the 
fact that you talked about a Conservation Innovation Grant, 
which was something that we had added to the conservation 
portfolio in the last farm bill, and so I was very interested 
in your using that as well.
    Thank you very much, Mr. Chairman.
    Chairman Roberts. Thank you, Senator.
    Shan, come back once again. I am worried about and I know 
the Senator from Michigan is worried about and everybody on the 
Ag Committee is worried about forbearance, and Banking 
Committees as well in the Congress, and Farm Credit for 
struggling farmers with the tough times, with the tough patch 
that we are in.
    I certainly do not want to ever again see the days where 
regulators would pull up black vehicles in front of the 
community bank and come in and want to look at your loan 
portfolio, which was performing. It was performing, but it did 
not meet some conscription or some yardstick that somebody had 
come up with and said you had to have X here or X there or Y 
here. Those were tough days. We lost a lot of folks. That was 
tragic.
    So can you tell me some of the ways that our Kansas bankers 
are working with customers and young and beginning farmers to 
ensure producers in our rural communities are able to weather 
the current economic storm? Where do you see forbearance 
coming? Or will there be forbearance from the regulators? Or 
have you seen the regulators yet? Well, I know you always see 
the regulators.
    [Laughter.]
    Mr. Hanes. I really do not want to see the black cars pull 
up either, frankly.
    Chairman Roberts. Yes.
    Mr. Hanes. Obviously, that is mission critical right now. 
We are in the middle of our renewal season. We are trying to 
get operating funds secured for everyone. Typically, as you 
would know, when prices go through the low cycles, we can 
typically use real estate to restructure lower payments, ease 
up the cash flow, that sort of thing. The challenge, I am 
afraid this time, is we are also looking at a time where rates 
are going to start moving up instead of down, and so that is 
actually going to make that much more of a challenge moving 
forward. But we can still use that because there is good equity 
in the land. When prices were good, a lot of banks increased 
loan margins, had a quicker repayment because the cash was 
there, and so we have got good equity in equipment and in real 
estate.
    When you get to the young and beginning farmers, however, 
typically they either do not have real estate to fall back on 
to restructure, or what they do have they have not had very 
long, and so there is not a lot of equity there to put cash, 
inject capital/cash back in the operation. So it becomes 
vitally important to educate the borrowers. They have to know 
their breakeven, their real breakeven of operating inputs, debt 
repayment, a real breakeven.
    I see a time now kind of going back to the mid-1990s where 
we may be marketing the entire year where the price of that 
particular commodity barely meets the breakeven, barely gets 
over it; and if it does, it is only going to be there for a 
very short period of time. So we have been very proactive in 
educating our borrowers so that they know what that breakeven 
is, and so they are in a position to act and respond and take 
advantage of that price when it does get there. So that is 
really what we are trying to do for our borrowers because that 
is the long-term projection.
    To that end, the last thing for the young and beginning 
farmer is Farm Service Agency and those guaranteed loans. That 
is a great source of comfort both to the bank and to the 
borrower. If they meet certain numbers and certain returns, we 
can get a 5-year guaranteed line of credit, and so that gives 
that borrower some assurance that, hey, as long as I meet this 
standard, I will be able to have my note renewed.
    The challenge is that what 20 years ago was a small young, 
beginning farmer and a $100,000 line of credit and $200,000 of 
equipment, that is not a beginning farmer. That is a hobby 
farmer now. So those loan limits we bump up in that 1.4 or 
1.399 guaranteed limit rather quickly, even with a beginning 
farmer. So that is the challenge I see even for those guys.
    Chairman Roberts. Gena, we started with you. I think we are 
going to end with you. I had a question on crop insurance, but 
I would like you to maybe respond to the same question that I 
asked Shan. What is your take on this in terms of forbearance, 
where we are headed, ample farm credit, et cetera, et cetera?
    Ms. Ott. In my written testimony, we talked a little bit 
about different adjustments that producers could make. We 
encourage then to look at their fixed costs and those four R's: 
to reamortize, if they have short real estate loans, to try to 
stretch them out to lower those payments through this lower 
cycle; refinance if they have got equipment debt and such, they 
may be able to restructure that and, again, lower the debt 
service on that, stretch it out some.
    We have talked about--I am going to forget my R's as I go 
along here. We are going to reassess family living needs, our 
costs of doing that. We got perhaps comfortable at some level 
when profitability was in the industry, and sometimes we need 
to look at that and make sure that we are careful about that 
while the cycle is at the bottom.
    Forgive me on the spot here. The other thing we have done 
is added staff that is dedicated entirely to working with 
people that are in a tough situation. So they have more tools 
to rework some of the financing, help them understand their 
costs. We have talked a lot, too, about making sure they are 
marketing when they can, when the profit is there. Shan alluded 
to that. If they use their crop insurance guarantee, they are 
able to price at a time where they do not have the product on 
hand, but they can forward-price knowing that that guarantee--
that the crop insurance is there so they can market a great 
percent of their production knowing that that is there to 
protect them when they have an opportunity to do so.
    Chairman Roberts. I put you on the spot. Well done.
    Thank you to all of our witnesses for joining us here in 
Manhattan, Kansas, America, the Little Apple. We appreciate you 
sharing your experiences and thoughts today, and thanks to 
those in the audience, those still remaining and those who have 
listened from around the country for your interest.
    A special thanks to my colleague and friend, Senator 
Stabenow. Welcome to Kansas. I look forward to going to 
Michigan. I think I look forward to going to Michigan. It is 
green and white, folks. It ain't purple.
    Senator Stabenow. That is right.
    Chairman Roberts. As I said when I took the gavel 2 years 
ago, this Committee is the voice of the producer. This 
Committee will not only provide folks a platform to spread the 
word about the value of production agriculture, but also be the 
forum for our farmers and ranchers and rural communities to 
participate in the shaping of our next farm bill.
    Today we started that process. We have heard about 
agriculture research, crop insurance, some of the other 
policies that are working well, and we have heard about the 
burdens of Government regulation and programs, and we need to 
raise more questions and craft solutions, including the ARC 
program.
    We will continue to listen to farmers and ranchers and 
other stakeholders at additional hearings in the countryside 
and in Washington. We will keep asking tough questions and 
reexamining programs to determine their effectiveness.
    We have less than 2 years to pass the next farm bill, and, 
yes, there will be another farm bill. But we have our work cut 
out for us. We need bold thinking, new ideas to address today's 
challenges during these tough economic times. We must face the 
realities head-on. Our producers in their fields are being 
asked to do more with less, and we also have to be willing to 
find solutions that stay within our budget caps and trade 
rules. Yes, those trade rules. I hope we have trade rules. I 
hope we have trade opportunities.
    We will be crafting a bill that meets the needs of 
producers across the countryside, and if we embrace the 
attitude of our producers' optimism and ingenuity, we can 
certainly get that done.
    To my fellow Committee members, I ask that any additional 
questions you may have for the record be submitted to the 
Committee clerk 5 business days from today or by 5:00 p.m. next 
Thursday, March 2nd.
    That concludes our hearing. The Committee is adjourned. 
Thank you all so much.
    [Whereupon, at 5:03 p.m., the Committee was adjourned.]

      
=======================================================================


                            A P P E N D I X

                           FEBRUARY 23, 2017



      
=======================================================================


[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
      
=======================================================================


                   DOCUMENTS SUBMITTED FOR THE RECORD

                           FEBRUARY 23, 2017



      
=======================================================================


[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]

      
=======================================================================


                         QUESTIONS AND ANSWERS

                           FEBRUARY 23, 2017



      
=======================================================================


[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
